APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals for
the Seventh Circuit (March 13, 2020)............... la
Memorandum Opinion & Order of the United
States District Court for the Northern District
of Illinois (September 4, 2018)........................... 20a
Decision of the United States District Court for
the Northern District of Illinois
(February 15, 2018).........................T.................... 67a
Memorandum Opinion & Order of the United
States District Court for the Northern District
of Illinois on Statute of Limitation
(January 29, 2018)................................................ 68a
Memorandum Opinion & Order of the United
States District Court for the Northern District
of Illinois on Duplicity (November 9, 2017)..... 92a

Rehearing Order
Order of the United States Court of Appeals for
the Seventh Circuit Denying Petition for
Rehearing En Banc (September 1, 2020)
117a

APPENDIX TABLE OF CONTENTS (Cont.)
Trial Documents
Final Jury Instructions, Excerpts
(February 14, 2018)....................
118a
O’Brien Indictment
(April 11, 2017)...........................
120a
HUD-1 Settlement Statement Refinance Transaction (October 18, 2005).... 132a
HUD-1 Settlement Statement Sale Transaction (April 16, 2007)............. . 135a
HUD-1 Settlement Statement Second Mortgage
(April 16, 2007).............................................. 140a
Commitment to Insure Title (March 7, 2007)..... 144a
ATG Commitment Form-Schedule A
(Issued on April 16, 2007)
147a
Acknowledgment and Agreements Between Chris­
topher Kwan/Maria Bartko (“Buyers”) and
Jessica O’Brien (“Seller”) (April 16, 2007).... 149a
IRS 1098 Form Information
(File Date May 2, 2008)................................ 151a
ATG Agency/Escrow Disbursement Agreement
(April 16, 2007)................................... .......... 153a

APPENDIX TABLE OF CONTENTS (Cont.)
Other Documents
Federal Bureau of Investigation FD 302 Report
(Appraiser) (March 29, 2017)
(Document# 147-4)...........
155a
DiCosola Indictment, Excerpts
(April 16, 2007)....................

158a

DiCosola Docket Wherein Matthew Francis Madden
Shown as Lead Counsel
161a
Bartko-Kwan Joint Checking Account Welcome
Letter (April 16, 2007)
161a
ATG Lender Transmittal
(April 16, 2007)...........
163a
Letter from Citigroup to AUSA Madden CitiMortgage Losses for Christopher Kwan’s Loans
(September 25, 2015)
165a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
(MARCH 13, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESSICA ARONG O’BRIEN,
Defendant-Appellant.
No. 19-1004
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division.
No. 17-cr-00239-l—Thomas M. Durkin, Judge.
Before: WOOD, Chief Judge, and FLAUM
and RIPPLE, Circuit Judges.
FLAUM, Circuit Judge.
A jury found Jessica A. O’Brien guilty of both bank
fraud and mail fraud affecting a financial institution
based on her participation in a 2004-to-2007 mortgage
fraud scheme. She appeals her convictions, arguing
that the charges against her were duplicitous and that
under a properly pled indictment the statute of limi­
tations would have barred three of the four

App.2a
alleged offenses. She also argues that the district court
should not have admitted evidence offered to prove
those time-barred offenses and that there was insuffi­
cient evidence to support the jury’s guilty verdict.
We affirm. The government appropriately acted
within its discretion to allege an overarching scheme
to commit both bank fraud and mail fraud affecting a
financial institution. Each count included an execution
of the fraudulent scheme within the applicable ten-year
statute of limitations, and the jury’s guilty verdict
rested upon properly admitted and sufficient evidence
of the charged offenses.
I.

Background

On April 11, 2017, a grand jury returned a twocount indictment charging O’Brien with mail fraud in
violation of 18 U.S.C. § 1341 (Count I) and bank fraud
in violation of 18 U.S.C. § 1344 (Count II). Both counts
alleged a 2004-to-2007 scheme in which O’Brien
misrepresented her income and liabilities to cause
lenders to issue and refinance loans related to two
investment properties O’Brien owned on the south side
of Chicago: one at 625 West 46th Street (the “46th
Street property”), and another at 823 West 54th Street
(the “54th Street property”). During the alleged scheme,
O’Brien was a licensed attorney with a background
and experience in the real estate industry, including
as a registered loan originator, mortgage consultant,
licensed real estate broker, and owner of O’Brien Realty
LLC, a licensed Illinois real estate company.
The indictment alleged that the scheme was
comprised of four transactions: (l) in 2004, O’Brien
“fraudulently obtained mortgage loan proceeds to pur­
chase” the 46th Street property by submitting mortgage

App.3a

documents with false statements regarding her income
and liabilities; (2) in 2005, O’Brien, with co-defendant
Maria Bartko as the loan originator, “fraudulently
refinanced [O’Brien’s] mortgage loans” on the 46th
Street and 54th Street properties by submitting
applications with false statements regarding O’Brien’s
income and employment; (3) in 2006, O’Brien “fraud­
ulently obtained a commercial line of credit” by sub­
mitting an application with false statements about
her realty company’s revenue and profit “and used
those loan proceeds to maintain the 46th Street and
54th Street properties”; and (4) in 2007, O’Brien and
Bartko “agreed that O’Brien would sell the 46th Street
and 54th Street properties to Bartko” using “Buyer A,”
Christopher Kwan, as “a straw buyer whom O’Brien and
Bartko knew would be fraudulently qualified for
mortgage loans.” The indictment also alleged that
O’Brien and Bartko knew “that false information
would be submitted to lenders, including Citibank,
N.A., to qualify [Kwan] for the mortgage loans.” Some
of her misrepresentations were made on HUD-1 forms
(as the name suggests, furnished by the U.S. Depart­
ment of Housing and Urban Development), which
detail the costs and fees associated with a mortgage
loan and are used in closing a property sale. See
United States v. Bouchard, 828 F.3d 116, 121 n.2 (2d
Cir. 2016).
Within each count, the indictment charged only
one execution of the scheme: In Count I, the indictment
alleged that on April 16, 2007, O’Brien and Bartko
mailed a payoff check relating to the purchase of the
46th Street property; and in Count II, the indictment
alleged that also on April 16, 2007, O’Brien caused
Citibank, N.A. (“Citibank”), a financial institution, to

App.4a

provide $73,000 to fund a mortgage for Kwan’s
purchase of the 46th Street property. The indictment
described the 2004, 2005, and 2006 transactions as
part of an overarching scheme rather than as separate
executions of mail or bank fraud.
At trial, the government presented evidence that
O’Brien had falsely represented her income and liabil­
ities and made other misrepresentations and omissions
when buying, refinancing, and maintaining the 46th
Street and 54th Street properties. After the jury found
O’Brien guilty on both counts and the district court
denied O’Brien’s post-trial motions, O’Brien appealed.
II.

Discussion

O’Brien argues that the district court erred by
denying (l) her motions to dismiss the indictment
based on duplicity and the statute of limitations, and
(2) her motions for judgment of acquittal and a new
trial based on the insufficiency of the evidence.
A. Duplicity and Statute of Limitations
We review de novo the district court’s denial of
O’Brien’s motions to dismiss the indictment on grounds
of duplicity and the statute of limitations. See United
States v. McGowan, 590 F.3d 446, 456 (7th Cir. 2009)
(statute of limitations); see also United States v. Pan­
sier, 576 F.3d 726, 734 (7th Cir. 2009) (duplicity).
1. Duplicity
The district court did not err in denying O’Brien’s
motion to dismiss based on duplicity because each count
of the indictment, ‘“fairly interpreted [,]’ alleges a
‘continuing course of conduct, during a discrete period
of time.’” United States v. Davis, 471 F.3d 783, 790-91

App.5a

(7th Cir. 2006) (quoting United States v. Berardi, 675
F.2d 894, 898 (7th Cir. 1982)). A count is duplicitous
if it “charges two or more distinct offenses within” the
count. United States v. Miller, 883 F.3d 998, 1003 (7th
Cir. 2018) (citation omitted). A count is not dupli­
citous, however, if it charges the commission of a single
offense through different means, Fed. R. Crim. P. 7(c)(1),
or if it charges acts that “comprise a continuing course
of conduct that constitutes a single offense,” Miller,
883 F.3d at 1003 (citation omitted).
The mail and bank fraud statutes prohibit
schemes to defraud, see 18 U.S.C. §§1341 & 1344,
which can include a “broad range of conduct,” United
States v. Doherty, 969 F.2d 425, 429 (7th Cir. 1992).
“Schemes to defraud . . . often are multi-faceted and
therefore the various means used in committing the
offense may be joined without duplicity.” United States
v. Zeidman, 540 F.2d 314, 318 (7th Cir. 1976). Under
the mail and bank fraud statutes, “for each count of
conviction, there must be an execution” of the scheme
to defraud, but “the law does not require the converse:
each execution need not give rise to a charge in the
indictment.” United States v. Hammen, 977 F.2d 379,
383 (7th Cir. 1992). The government has the discretion
to “allege only one execution of an ongoing scheme
that was executed numerous times.” Id.
The indictment alleged a single scheme to defraud
lenders that consisted of four related transactions in
which O’Brien used lies and concealment to obtain
money from lenders for the 46th Street and 54th
Street properties and for her own personal gain. Spe­
cifically, the indictment alleged that O’Brien lied to
lenders to: (l) buy the 46th Street property in 2004;
(2) refinance loans on the 46th Street and 54th Street

App.6a
properties in 2005; (3) obtain a loan to maintain the
46th Street and 54th Street properties in 2006; and (4)
sell the 46th Street and 54th Street properties in 2007.
O’Brien insists that “the quartet of isolated and
disconnected transactions involving different times,
people, types of transactions, different lenders and
different alleged false material statements gives rise
to the clear conclusion that there was no single
continuous scheme to defraud.” For example, O’Brien
asserts that the government contended that she falsely
certified that the 46th Street property was her primary
residence, but the indictment made no similar allega­
tions regarding her 54th Street purchase. She also
emphasizes that the four transactions involved differ­
ent parties, and that neither Citibank nor its whollyowned subsidiary and mortgage lending arm, CitiMortgage, was involved in three of the transactions. O’Brien
therefore contends that “[t]he four alleged transactions
are so different and distinct that the only commonality
is ‘financial gain’ or something equally general.”
The relevant transactions, however, all involved:
(l) at least one of a pair of investment properties on
Chicago’s south side (the 46th Street and 54th Street
properties); (2) O’Brien; (3) lies in loan documents; (4)
the same class of victims (lenders); and (5) the same
goal of obtaining financing related to the two
properties for personal enrichment. The government
acted appropriately within its discretion to charge the
transactions as different means for carrying out an
overarching scheme to defraud. Cf. Davis, 471 F.3d at
791 (holding there was no duplicity where indictment
charged “ongoing and continuous course of conduct,
accomplished through three different methods,” repeat­
ed numerous times over the years, all involving the

App.7a

same defendant); United States v. Prieto, 812 F.3d
6, 10, 12 (1st Cir. 2016) (finding no duplicity where
indictment alleged three-year mortgage rescue program
scheme involving 86 transactions with 30 mortgage
lenders, in which defendant engaged in sham transfers
of properties to straw purchasers who quitclaimed
properties to defendant’s organization, and noting
that schemes to defraud “may harm different groups
of victims at different times” (citing United States v.
Buchmeier, 255 F.3d 415, 421 (7th Cir. 2001))).
2. Statute of Limitations
The district court also did not err in denying
O’Brien’s motion to dismiss based on the statute of
limitations because the indictment alleged that each
count was executed on April 16, 2007, which fell within
the applicable ten-year statute of limitations. We deter­
mine the applicable statute of limitations, and whether
the charges were timely brought, based on the face of
the indictment. See United States v. White, 610 F.3d
956, 958 (7th Cir. 2010) (“An indictment is reviewed on
its face, regardless of the strength or weakness of the
government’s case.”). The statute of limitations for bank
fraud is ten years. 18 U.S.C. § 3293(l). The statute of
limitations for mail fraud is generally five years, id.
§ 3282(a), but a ten-year statute of limitations applies
for fraud that “affects a financial institution,” id.
§ 3293(2).
The indictment plainly alleged that the scheme to
defraud affected Citibank, which O’Brien does not
dispute qualified as a financial institution. The mail
fraud count (Count I) alleged that Citibank required
mortgage loan applicants to provide truthful informa­
tion, which was material to its approval and funding of

App.8a

loans, and that O’Brien knew “that false information
would be submitted to lenders, including Citibank,
N.A., to qualify [Kwan] for the [2007] loans.” The bank
fraud count (Count II) similarly charged an offense
that affected a financial institution, as we explain
below. A ten-year statute of limitations therefore
applied to both counts. The ten-year period started to
run from the date of the alleged executions, April 16,
2007. The grand jury returned the indictment on April
11, 2017, before the ten-year period expired.
B. Sufficiency of the Evidence
The district court did not err in denying O’Brien’s
motions for a judgment of acquittal or a new trial
because there was sufficient evidence to support
O’Brien’s convictions for mail fraud affecting a financial
institution under 18 U.S.C. §§ 1341 & 3293(2) (Count I)
and for bank fraud under 18 U.S.C. § 1344(2) (Count
II). We review de novo the denial of a motion for a
judgment of acquittal, which “should be granted only
when the evidence is insufficient to sustain the con­
viction.” United States v. James, 464 F.3d 699, 705
(7th Cir. 2006). The evidence is sufficient if “any
rational trier of fact could have found the essential
elements of a crime beyond a reasonable doubt.” United
States v. Kelerchian, 937 F.3d 895, 907 (7th Cir. 2019)
(citation omitted). We “overturn a verdict only when
the record contains no evidence, regardless of how it
is weighed, from which the jury could find guilt beyond
a reasonable doubt.” Id. (citation omitted). We review
for an abuse of discretion the denial of a motion for a
new trial, which should be granted “only if the evi­
dence preponderates heavily against the verdict, such
that it would be a miscarriage of justice to let the
verdict stand.” United States v. Swan, 486 F.3d 260,

App.9a

266 (7th Cir. 2007) (internal quotations marks, brackets,
and citation omitted).
1. Mail Fraud Affecting a Financial Institution
(Count I)
To convict O’Brien of mail fraud under 18 U.S.C.
§ 1341, the government had to prove beyond a reason­
able doubt that O’Brien: (l) participated in a scheme to
defraud; (2) intended to defraud; and (3) used the
mails in furtherance of the scheme. United States v.
Seward, 272 F.3d 831, 835 (7th Cir. 2001). Because
the government relied on the ten-year statute of limi­
tations applicable to mail fraud that “affects a financial
institution,” see 18 U.S.C. § 3293(2), it was also required
to establish that the fraud affected a financial institu­
tion, which can be established by a showing that the
fraud exposed the financial institution to “a new or
increased risk of loss,” United States v. Serpico, 320
F.3d 691, 694-95 (7th Cir. 2003). The government
needed to show that O’Brien intended for her scheme
to defraud “someone.” but “a financial institution [did]
not need to be the intended victim.” United States v.
Marr, 760 F.3d 733, 744 (7th Cir. 2014); see also United
States v. Pelullo, 964 F.2d 193, 216 (3d Cir. 1992)
(noting that 18 U.S.C. § 3293(2) applies to a “broader
class of crimes” than those “where the financial insti­
tution is the object of the fraud”).
Viewing the evidence in a light most favorable to
the prosecution, O’Brien devised a scheme to defraud
and made numerous false statements in furtherance
of the scheme, including by inflating her income and
concealing her biggest liability to obtain a loan to buy
the 46th Street property in 2004; inflating the income
from her realty company to refinance the loans on the

App.lOa
46th Street and 54th Street properties in 2005;
inflating revenue and profits for her realty company
to obtain a loan to maintain the 46th Street and 54th
Street properties in 2006; and selling the 46th Street
and 54th Street properties in 2007 to a straw buyer,
while making kickback payments to the true buyer
without disclosing the identity of the buyer or the
kickback payments to the lender.
The evidence further demonstrated that O’Brien
fraudulently caused Citibank to provide Kwan the
funding for two loans in connection with the 2007
purchase of the 46th Street property: one loan in the
amount of $73,000 and another in the amount of
$292,000. O’Brien’s misrepresentations in connection
with these transactions were established by, among
other things, the false and fraudulent loan applications
O’Brien submitted; documents related to the purchase
and sale of the properties; the false HUD-1 forms; evi­
dence of O’Brien’s and her realty company’s actual
income; and testimony of Citibank vice president Judy
Taylor. Citibank was not only exposed to an increased
risk of loss; it suffered an actual loss as a result of the
2007 loans because it had to foreclose on the 46th
Street property and ultimately sold the property at a
“significant loss.”1
1 O’Brien appears to suggest that, even though her husband was
not a co-borrower on one of the loans, her husband’s income
should have been counted when calculating her income to qualify
for the loan. O’Brien has pointed to no authority explaining why
the law compels such a result or otherwise explained how this
circumstance undermines confidence in the jury’s conclusion that
she harbored the requisite fraudulent intent. O’Brien also
contends that a witness from Chase testified that “it was possible
that the Chase branch loan officer may have made mistakes
when she entered O’Brien’s LLC loan information” in connection

App.lla

The parties agree that—during the time relevant
to this case—Citibank qualified as a financial institu­
tion, but its wholly-owned subsidiary, CitiMortgage,
did not.2 O’Brien maintains that CitiMortgage, not
Citibank, was the lender for the $73,000 loan in April
2007.3 She also concedes, however, that “countless
exhibits presented by the government and defense
offered conflicting testimony/exhibits regarding whe­
ther [CitiMortgage] or Citibank] funded” the $73,000
loan, and that related exhibits “cut both ways.” This
is precisely the kind of conflicting evidence that is
within the jury’s province to resolve.
This is not a case like United States v. Bennett,
where “the government relied solely on [the mortgage
lender]’s status as a wholly-owned subsidiary [of a
financial institution], and presented no evidence
indicating what kind of parent-subsidiary relationship
actually existed.” 621 F.3d 1131, 1139 (9th Cir. 2010).
Nor is this a case like United States v. Banyan, where
the government did not “make any effort at trial to
prove that the loans were funded by the mortgage
companies’ parent corporations, which were banks.”
933 F.3d 548, 551 (6th Cir. 2019).

with one of the loans. Such a speculative possibility, however,
does not provide grounds for overturning the jury’s verdict.
2 See Bouchard, 828 F.3d at 124 (“Prior to 2009, the term ‘financial
institution’ was defined to include insured depository institutions
of the FDIC, but not mortgage lenders.”); see also 18 U.S.C. § 20(l)
(amended in May 2009 to include non-FDIC mortgage lenders in
definition of “financial institution”).
3 O’Brien does not appear to contest that the $292,000 for the
other April 2007 loan came from Citibank.

App.l2a

Here, the government presented substantial evi­
dence beyond Citibank’s parent-subsidiary relation­
ship with CitiMortgage to support the conclusion that
Citibank funded the $73,000 and $292,000 loans.
Citibank vice president Taylor, for example, testified
that the $73,000 loan was a Citibank product and that
“all of the money used to fund both the $292,000 and
the $73,000 loan came from a Citibank account.”
Several documents additionally identified Citibank as
the lender on the $73,000 loan, such as the note,
mortgage, HUD-1 settlement statement, truth-in­
lending disclosure, affiliated business arrangement
disclosure, and homeowner’s insurance documents.
O’Brien’s signature on some of those documents is
assurance enough that she saw them; the evidence of
her link to other documents is not as direct.
The evidence on Count I was therefore sufficient
to establish that O’Brien devised and participated in
a fraudulent scheme, that she intended to defraud
CitiMortgage, and that the fraud affected Citibank.
Cf. United States v. Mullins, 613 F.3d 1273, 1278—79
(10th Cir. 2010) (affirming application of ten-year
statute of limitations for fraud affecting a financial
institution where jury heard evidence “explaining how
fraudulent information on a loan application increases
the risk of loss to the lender and its parent bank”);
United States v. Bouyea, 152 F.3d 192, 195 (2d Cir.
1998) (per curiam) (holding there was sufficient evi­
dence that financial institution was affected where
employee of wholly-owned subsidiary testified that
subsidiary borrowed money for transaction at issue
from parent financial institution); Pelullo, 964 F.2d at
215-16 (disposing of defendant’s assumption that “a
fraud perpetrated against a financial institution’s

App.l3a

wholly owned subsidiary cannot affect the parent”).
O’Brien does not contest the sufficiency of the evidence
regarding the April 16, 2007 mailing in furtherance of
the scheme. The mail fraud conviction is sound.
2. Bank Fraud (Count II)
The evidence was also sufficient to convict O’Brien
of bank fraud under 18 U.S.C. § 1344(2). Section 1344
provides that a defendant may be found guilty of bank
fraud if she:
knowingly executes, or attempts to execute,
a scheme or artifice—
(1) to defraud a financial institution; or
(2) to obtain any of the moneys, funds, credits,
assets, securities, or other property owned
by, or under the custody or control of, a
financial institution, by means of false or
fraudulent pretenses, representations, or
promises.
Count II of the indictment charged O’Brien with
violating § 1344, which the government was permitted
to prove under subsection (l) or (2). See United States
v. LeDonne, 21 F.3d 1418, 1427 (7th Cir. 1994) (reason­
ing that the government may charge both sections of
§ 1344 in same count). While the government must
prove that the defendant had the specific intent to
defraud a financial institution under § 1344(l), proof
of such intent is not required under § 1344(2).
Loughrin v. United States, 573 U.S. 351, 356-57 (2014)
(“[N]othing in [§ 1344(2)] additionally demands that a
defendant have a specific intent to deceive a bank.
And indeed, imposing that requirement would prevent

App.l4a
§ 1344(2) from applying to a host of cases falling within
its clear terms.”).
Rather, to obtain a conviction under § 1344(2), the
government may demonstrate that the defendant
knowingly “deceiv[ed] a non-bank custodian into giving
up bank property that it holds.” Id. at 357. In
Loughrin, the Supreme Court held that “the text of
§ 1344(2) precluded]” the defendant’s argument that
“his intent to deceive ran only to Target,” a nonfinancial institution, “and not to any of the banks on
which his altered checks were drawn.” Id. at 356. The
Court reasoned that applying § 1344(2) only “in
the (presumably rare) circumstance in which the
fraudster’s intent to deceive extended beyond the
custodian to the bank itself... would ... function as an
extra-textual limit on the clause’s compass.” Id. at
357. The defendant nevertheless “must at least know
that the property belongs to or is under the custody or
control of a bank.” Bouchard, 828 F.3d at 126. Hence,
to overturn the bank fraud conviction, O’Brien must
convince us that no rational jury could infer that she
knowingly deceived CitiMortgage into giving up
Citibank funds.
We conclude that a rational jury could find—based
on O’Brien’s experience in the real estate industry and
with Citibank in particular, as well as her intimate
involvement in the fraudulent scheme and the 2007
transactions—that O’Brien knew that the funds for
the April 2007 loans originated from Citibank. In
Bouchard, the Second Circuit overturned a mortgage
fraud conviction under § 1344(2) because the govern­
ment had not established that the defendant knew
that the funds fraudulently obtained from the mortgage
lenders belonged to or were under the custody or

App.l5a

control of a bank. 828 F.3d at 126-27. The Second Circuit
noted that “the Government might have been able to
prove that [the defendant] knew that money from
mortgage lenders came from banks by virtue of his
knowledge of the industry” but “failed to make this
argument or proffer evidence of [the defendant]’s
extensive knowledge of the real estate and mortgage
lending industry as a reason to convict him at trial.”
Id. at 127. The government provided precisely such
evidence here.
O’Brien had an extensive background and experi­
ence in the real estate industry, including as a regis­
tered loan originator, mortgage consultant, licensed
real estate broker, and owner of O’Brien Realty LLC,
a licensed Illinois real estate company. She had prior
experience working with Citibank in particular. More­
over, when Citibank vice president Taylor was asked
about “a typical day at Citi back in 2007,” she
explained that “Citibank would provide funds to CitiMortgage” to fund loans in a similar way that it
funded the April 2007 loans. Pairing O’Brien’s exten­
sive expertise in the real estate and mortgage lending
industry with the fact that Citibank funded the April
2007 loans as it would in the ordinary course of its busi­
ness supports the inference that O’Brien knew the
funding would originate from Citibank.
Such an inference is buttressed by evidence of
O’Brien’s intimate involvement in the fraudulent
scheme and especially her involvement in the April
2007 transactions. O’Brien acted as both the seller
and seller’s attorney, was present for the closings, was
closely involved with the sale, and prepared the
closing statements. The HUD-1 form O’Brien signed
listed Kwan’s $73,000 loan, and the HUD-1 form for

App.l6a

that loan expressly identified Citibank as the lender.
One might not normally expect a seller in an armslength real estate transaction to have access to infor­
mation to which the buyer has access, but this was no
arms-length transaction. O’Brien and Kwan were co­
participants in a scheme to defraud in which O’Brien and
Bartko used Kwan as a straw purchaser. O’Brien,
Kwan, and Bartko had signed notarized “Acknowledge­
ment & Agreements” forms (undisclosed in the HUD
file and to the lender) that identified both Kwan and
Bartko as buyers. O’Brien also made undisclosed pay­
ments to both Kwan and Bartko, including a $4,000
check to Kwan dated the day of the 46th Street closing,
which Kwan endorsed over to Bartko.
Hence, the jury could reasonably have connected
O’Brien’s background and experience with the other
evidence regarding the relationship between Citibank
and CitiMortgage, as well as the identification of
Citibank as the lender on loan documents and O’Brien’s
participation in the fraudulent scheme (and in the 2007
transactions in particular), to conclude that O’Brien
knew the funds originated from Citibank. Cf. United
States v. Rabuffo, 716 F. App’x 888, 898-99 (llth Cir.
2017) (affirming § 1344 conviction where it was rea­
sonable to infer that defendant “knew the fraudulent
loan applications would place SunTrust Bank at a
risk of harm” based on defendant’s background as
“experienced real estate developer,” defendant’s involve­
ment in scheme, similarity of names between SunTrust
Bank and its wholly-owned subsidiary (Sun-Trust
Mortgage), and defendant’s previous interactions with
SunTrust Bank).
The defendant in Loughrin violated § 1344(2)
“because he made false statements, in the form of

App.l7a

forged and altered checks, that a merchant would, in
the ordinary course of business, forward to a bank for
payment.” 573 U.S. at 366. Similarly, O’Brien’s fraud­
ulent misrepresentations were “the mechanism
naturally inducing a . . . custodian of bank property
. . . to part with money in its control.” Id. at 363.4 Her
bank fraud conviction must stand.
3. Materiality
O’Brien raises a new argument on appeal that
“there were no mail or bank fraud material misrepre­
sentations because Citi[bank]’s loss risk was extra­
ordinarily de minimis.” According to O’Brien, Citibank’s
risk of loss due to this scheme represented only a
small fraction of the $550 million “that [CitiMortgage]
(and its subsidiaries) received ... on a daily basis to
fund its mortgage loan docket.” O’Brien did not raise
this argument in the district court and has therefore
forfeited it, so our review is for plain error. See United
States v. Walsh, 723 F.3d 802, 807 (7th Cir. 2013).
In any event, there was no error, plain or otherwise.
Materiality requires only the tendency or capability
of influencing the victim; there is no requirement that
the misrepresentations must have actually influenced
the decision-maker or that the decision-maker in fact
relied on the misrepresentations. See United States v.
Roberts, 534 F.3d 560, 571 (7th Cir. 2008). O’Brien has
pointed to no authority supporting her novel argument
that fraudulent misstatements are material only if

4 Because there was sufficient evidence to sustain the bank fraud
conviction under § 1344(2), we need not reach the question of
whether we could also sustain O’Brien’s conviction under § 1344(l).

App.l8a
they affect more than a de minimis proportion of a
victim’s funds.
Here, the jury heard evidence that if O’Brien had
disclosed O’Brien Realty LLC’s true financial status,
her application for a commercial loan would have been
denied. The jury also heard that, had O’Brien dis­
closed to Citibank that Kwan was a straw buyer and
Bartko the true buyer, it would have raised a “red
flag” and affected Citibank’s risk analysis. The mis­
statements were therefore material. Cf. United States
v. Reynolds, 189 F.3d 521, 525-26 (7th Cir. 1999)
(affirming conviction and finding sufficient evidence
of materiality “[bjecause [defendant]’s false state­
ments regarding his financial condition could clearly
influence a bank deciding whether to approve a loan
(even if they did not in fact influence the decision)”).
C. Admissibility of Evidence
Finally, the district court did not abuse its discre­
tion in admitting evidence relating to the 2004, 2005,
and 2006 transactions as direct evidence of the fraud­
ulent scheme alleged. See United States v. Quiroz,
874 F.3d 562, 569 (7th Cir. 2017) (reviewing evidenti­
ary rulings for abuse of discretion). “[T]he fact that
only one or two executions fell within the Statute of
Limitations does not detract from the entire pattern of
loans’ being a scheme, and renders [the defendant] no
less culpable for the entire scheme.” United States v.
Longfellow, 43 F.3d 318, 325 (7th Cir. 1994). We need
not conduct a Federal Rule of Evidence 404(b) analysis
because “if the evidence is admitted as direct evidence
of the charged offense, Rule 404(b) is not applicable.”
United States v. Adams, 628 F.3d 407, 414 (7th Cir.
2010).

App.l9a

O’Brien tacks on that the district court should not
have admitted the May 2007 quit claim deeds because
those deeds are outside of the statute of limitations.
Those deeds, however, are dated within the applicable
ten-year statute of limitations, which began to run in
April 2007. In any event, the district court appropriately
admitted those deeds as direct evidence demonstrating
that Kwan (the straw buyer) quit claimed the properties
to Bartko (the true buyer) shortly after the closings.
They are admissible even though they are dated after
the executions of the scheme to defraud. See United
States v. Ajayi, 808 F.3d 1113, 1120 (7th Cir. 2015)
(stating that the government may introduce uncharged
acts of bank fraud after execution of scheme to support
its case). The district court did not err in admitting
the contested evidence.
III. Conclusion
For the foregoing reasons, we AFFIRM O’Brien’s
convictions.

App.20a
MEMORANDUM OPINION & ORDER OF
THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
(SEPTEMBER 4, 2018)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
JESSICA ARONG O’BRIEN
Defendant.
No. 17 CR 239-1
Before: Honorable Thomas M. DURKIN,
United States District Judge.
A jury convicted defendant Jessica Arong O’Brien
of mail fraud affecting a financial institution in viola­
tion of 18 U.S.C. § 1341 (Count I) and bank fraud in
violation of 18 U.S.C. § 1344 (Count II). Before the
Court are O’Brien’s consolidated post-trial motions for
a judgment of acquittal or, alternatively, for a new
trial [277]. 1 Also before the Court are several motions
1 O’Brien filed over 100 pages of briefing on her post-trial
motions, much of which repeats arguments already dealt with in

App.21a

made by O’Brien during trial that the Court took under
advisement: O’Brien’s motion for judgment of acquittal
filed at the close of the government’s case [225], and
O’Brien’s oral motions for a directed verdict at the
close of the evidence and following the jury charge (see
R. 230). For the reasons explained below, the Court
denies O’Brien’s motions.
I.

Motion for Judgment of Acquittal
A. Standard

Federal Rule of Criminal Procedure 29(a) provides
that “the court on the defendant’s motion must enter
a judgment of acquittal on any offense for which the
evidence is insufficient to sustain a conviction.” “In
challenging the sufficiency of the evidence, [a defend­
ant] bears a heavy, indeed, nearly insurmountable,
burden.” United States v. Warren, 593 F.3d 540, 546
(7th Cir. 2010). The reviewing court will view the “evi­
dence in the light most favorable to the prosecution,”
and the defendant “must convince [the court] that
even after viewing the evidence in the light most
favorable to the prosecution, no rational trier of fact
could have found h[er] guilty beyond a reasonable
doubt.’” Warren, 593 F.3d at 546. In other words, a
court will “set aside a jury’s guilty verdict only if the
record contains no evidence, regardless of how it is
weighed, from which a jury could have returned a con­
viction.” United States v. Presbitero, 569 F.3d 691,
704 (7th Cir. 2009).

the Court’s opinions on O’Brien’s five pre-trial motions to dismiss
and to strike (R. 45; R. 131; R. 139; R. 141; R. 214). The Court
nevertheless addresses those arguments again here.

App.22a

Thus, under Rule 29, courts “do not reassess the
weight of the evidence or second-guess the trier of
fact’s credibility determinations.” United States v.
Arthur, 582 F.3d 713, 717 (7th Cir. 2009). This strict
standard is a recognition that “[starting the facts and
inferences is a task for the jury.” Warren, 593 F.3d at
547. At the same time, “[a] Rule 29 motion calls on the
court to distinguish between reasonable inferences and
speculation.” United States v. Jones, 713 F.3d 336,
340 (7th Cir. 2013). “[Wlhere the evidence as to an
element of a crime is equally consistent with a theory
of innocence as a theory of guilt, that evidence
necessarily fails to establish guilt beyond a reasonable
doubt.” United States v. Harris, 942 F.2d 1125, 112930 (7th Cir. 1991).

B. Application
O’Brien’s motion for judgment of acquittal makes
numerous arguments. To begin, she challenges two
aspects of the “scheme to defraud” element of both
Counts I and II: (l) the sufficiency of the evidence to
support the jury’s finding of a scheme, and (2) whether
the scheme alleged in the indictment materially and
prejudicially varied from the scheme proven at trial.
O’Brien also makes two arguments related to the
“affect [ing] a financial institution” element that the
government needed to prove in order for Count I (mail
fraud) to fall within the ten-year statute of limitations
under 18 U.S.C. § 3293(2) and therefore be timely: (l)
2 O’Brien’s newly retained counsel asks the Court to “keep in mind”
when deciding the motion for acquittal what he characterizes as
numerous errors on the part of O’Brien’s trial counsel. R. 277 at
6 n.5. As O’Brien’s new counsel recognizes, however, “now is not
the time to raise an ineffective assistance claim.” Id.

App.23a
she challenges the sufficiency of the government’s
proof that the scheme affected a financial institution;
and (2) she challenges whether “affect [ing] a financial
institution” is unconstitutionally vague. Finally,
O’Brien maintains that the evidence on Count II
(bank fraud) was insufficient to show intent on the
part of O’Brien or that O’Brien caused the execution
for which the jury convicted her.
1. “Scheme to Defraud” Element of Both
Counts
a. Sufficiency of the Evidence
O’Brien first argues that the Court should acquit
her on both counts because no rational jury could have
concluded that she engaged in a scheme to defraud—
an element of both mail fraud under 18 U.S.C. § 1341
and bank fraud under 18 U.S.C. § 1344. “As its
ordinary meaning suggests, the term ‘scheme to
defraud’ describes a broad range of conduct.” United
States v. Doherty, 969 F.2d 425, 429 (7th Cir. 1992). A
scheme is generally understood to be a ‘“continuing
course of conduct, during a discrete period of time.’”
United States v. Davis, 471 F.3d 783, 790 (7th Cir.
2006) (quoting United States v. Berardi, 675 F.2d 894,
898 (7th Cir. 1982)).
O’Brien’s argument on this issue largely rehashes
points made in her pretrial motion to dismiss the
indictment on duplicity grounds. In its ruling denying
that motion, this Court explained in detail why the
conduct alleged in the indictment constituted a scheme.
R. 116. The Court assumes general familiarity with
that opinion but reiterates key points here, along with
the relevant background.

App.24a
The indictment against O’Brien and her co-defen­
dant Maria Bartko (who pleaded guilty prior to trial
(see R. 197, 205)), alleged a scheme comprised of four
sets of transactions: (l) in 2004, O’Brien “fraudulently
obtained mortgage loan proceeds to purchase an invest­
ment property located at 625 West 46th Street” in
Chicago, Illinois (“the 46th Street property”) by sub­
mitting mortgage documents with false statements
regarding her income and liabilities (“the 2004 trans­
actions”); (2) in 2005, O’Brien, with Bartko as the loan
originator, “fraudulently refinanced her mortgage loans
on the 46th Street property and on a second investment
property located at 823 West 54th Street,” also in
Chicago, Illinois (“the 54th Street property”) by sub­
mitting applications with false statements regarding
O’Brien’s income and employment (“the 2005 transac­
tions”); (3) in 2006, O’Brien “fraudulently obtained a
commercial line of credit” by submitting an applica­
tion with false statements about her realty company’s
revenue and profit “and used those loan proceeds to
maintain the 46th Street and 54th Street properties”
(“the 2006 transactions”); and (4) in 2007, O’Brien and
Bartko “agreed that O’Brien would sell the 46th Street
and 54th Street properties to Bartko” using “a straw
buyer whom O’Brien and Bartko knew would be
fraudulently qualified for mortgage loans” (“the 2007
transactions”). R. 1 at 4-7.
In its order denying O’Brien’s motion to dismiss
on duplicity grounds, the Court found that “the common
elements between the transactions alleged [in the
indictment] [we]re: (l) they all involved at least one of
a pair of investment properties in Chicago’s south
side; (2) they all involved O’Brien; (3) they all involved
lies in loan documents; (4) they all involved the same

App.25a

class of victims (lenders); and (5) they all involved the
same goals (obtaining financing related to the two
investment properties and personal enrichment).” R.
116 at 9-10. Additionally, all the transactions occurred
over a period of time (three years) that courts have
found sufficiently discrete to be part of a single
scheme. Id. at 17-18.
At trial, the Court instructed the jury that the gov­
ernment had to prove “a scheme to defraud” beyond a
reasonable doubt with respect to each count. R. 229 at
21-22. Consistent with this Court’s holdings on the
duplicity motion, the government described the scheme
at closing as follows: “From 2004 to 2007, the scheme
was to get money from lenders through lies and conceal­
ment, all related to those two investment properties.”
Tr. 1196.3 The government explained that O’Brien was
at the “center of this scheme to defraud.” Tr. 1197. The
jury convicted O’Brien, thus finding the scheme
element satisfied beyond a reasonable doubt.
Substantial evidence supported the jury’s conclu­
sion, including:
•

Evidence that in 2004, O’Brien reported an
inaccurate income and concealed her biggest
liability in a loan application to purchase the
46th Street property. E.g., Government Exhibit
(“GX”) 46th St. Purchase 2 (O’Brien’s 2004 loan
application claiming $6,800/month in gross
income and failing to disclose liability for
O’Brien and her husband’s South Park prop­
erty); GX ILCOMP 2 (O’Brien reported only
$11,500 in wages for 2004); see Tr. 215-28

3 “Tr.” refers to the consecutively-paginated trial transcript, the
eight volumes of which are available on the docket at R. 255-62.

App.26a
(testimony of Angela Miller from the Illinois
Department of Revenue explaining that O’Brien
was on unpaid leave from her job at the
Department of Revenue from November 2003
until October 2004); GX South Park 2 (April
2004 mortgage listing O’Brien and her husband
as borrowers on South Park property); GX 46th
St. Refinance 2 (showing O’Brien owed over
$249,000 on loan for South Park property as of
2005).
•

Evidence that in 2005, O’Brien represented her
income from her realty company (“O’Brien
Realty”) inaccurately on loan applications to
earn more than $100,000 in cash out refinances
on her loans on the 46th Street and 54th Street
properties, with Maria Bartko as the loan interviewer. E.g., GX 46th St. Refinance 2 (2005
loan application for 46th Street refinance
claiming $20,000 in base monthly employment
income from O’Brien Realty; showing Maria
Bartko as interviewer); GX 54th St. Refinance 2
(2005 loan application for 54th Street refinance
claiming $20,000 in base monthly employment
income from O’Brien Realty; showing Maria
Bartko as interviewer); GX Tax 3 (2005 Form
1040X showing $21,000 in gross yearly receipts
for O’Brien Realty); GX 46th St. Refinance 1
(showing $32,7000 cash going to O’Brien as
borrower); GX 54th St. Refinance 1 (showing
$67,900 cash going to O’Brien as borrower).

•

Evidence that in 2006, O’Brien misrepresented
O’Brien Realty’s revenue, profits, and liabilities
to obtain a commercial line of credit and
commercial loan used to pay mortgages and

App.27a
expenses for the 46th Street and 54th Street
properties. E.g., GX Chase 5 (O’Brien claiming
$150,000 in 2005 annual sales for O’Brien
Realty); GX Chase 6 (O’Brien claiming $100,000
in 2005 profits for O’Brien Realty); GX Tax 3
(2005 Form 1040X reflecting $21,000 in gross
receipts for O’Brien Realty); GX Summary 5
(showing advances on the 2006 line of credit
used to make mortgage payments on the 46th
Street and 54th Street properties); GX O’Brien
39 (O’Brien’s bank records reflecting advances
on the 2006 line of credit, with a handwritten
circle around numerous advances and with the
following handwritten note appearing to be a
description of all the circled advances: “823 W.
54th Street rehab-labor”).
•

Evidence that in 2007, O’Brien purported to
sell the 46th Street and 54th Street properties
to a straw buyer named Christopher Kwan,
when Bartko was the true buyer, and O’Brien
paid Bartko money to buy them. E.g., GX Ack­
nowledgment 1 & 2 (notarized documents
titled “Acknowledgment & Agreements Between
Christopher Kwan/Maria Bartko (‘Buyers’) and
Jessica O’Brien (‘Seller’),” which indicate
O’Brien’s knowledge of Bartko as a buyer (“the
acknowledgments”)); GX 46th St. Sale 17
($36,000 check from O’Brien to Bartko with
46th Street address handwritten on top, dated
the day before the closing and posting seven
days after closing); GX 54th St. Sale 9 ($4,000
check dated the day of the 46th Street closing
from O’Brien to Kwan, which Kwan endorsed
over to Bartko); GX 46th St. Sale 1 (HUD-14

App.28a

identifying Kwan as the buyer for 46th Street
property and not acknowledging Bartko as a
buyer or any payment to Bartko); GX 54th St.
Sale 8 ($37,836 check from O’Brien to Bartko
with 54th Street address handwritten on top,
dated the day before the closing and posting six
days after closing); GX 54th St. Sale 1 (HUD
14 identifying Kwan as the buyer for 54th
Street property and not acknowledging Bartko
as a buyer or any payment to Bartko); GX CCRD
1 and 2 (Kwan’s quit claim deeds transferring
properties to Bartko soon after closing). O’Brien
obtained over $200,000 in proceeds from these
closings. See GX 46th St. Sale 1 (over $57,000
in cash to O’Brien as seller of 46th Street prop­
erty); GX 54th St. Sale 1 (over $165,000 in cash
to O’Brien as seller of 54th Street property).
A rational juror easily could have found based on
this evidence that between 2004 and 2007, O’Brien
engaged in a scheme to defraud lenders through lies
in loan documents, all related to her two investment
properties. The evidence supported that O’Brien
submitted false loan documents to purchase the
properties, to refinance the properties, to obtain a
commercial line of credit in part to cover expenses for
the properties, and to sell the properties.
O’Brien’s motion for acquittal does not argue that
the government failed to present evidence of the

4 “A HUD-1 form is a Housing and Urban Development settlement
form used in closing a property sale that details the costs and
fees associated with a mortgage loan.” United States v. Bouchard,
828 F.3d 116, 121 n.2 (2d Cir. 2016).

App.29a

alleged scheme. Instead, she makes a series of argu­
ments about why the evidence presented did not
constitute a scheme as a matter of law, or why addi­
tional evidence was necessary to establish a scheme
as a matter of law, most of which the Court already
addressed and rejected in deciding O’Brien’s duplicity
motion. O’Brien also makes arguments regarding the
2007 transactions that improperly ask the Court to
“reassess the weight of the evidence.” Arthur, 582
F.3d at 717.
First, O’Brien emphasizes that the four transac­
tions “were separated in time; involved different kinds of
alleged false statements; involved different types of
transactions; and involved different lenders.” R. 277
at 13. But the evidence at trial on these issues tracked
the conduct alleged in the indictment. And the Court
already found that the indictment alleged a scheme
despite these differences. R. 116 at 9-17.
Second, O’Brien says there could be no scheme
without evidence that O’Brien “intended, planned,
or . . . foresaw the subsequent transactions when she
purchased the 46th Street property in August 2004.”
R. 277 at 13; see also R. 288 at 10. As the Court
explained in ruling on O’Brien’s duplicity motion,
however, the fact “‘that the whole scheme was not
planned out in advance’” is not ‘“significant”’ in
determining whether a scheme existed—a scheme can
be an “‘imperfectly conceived plan to defraud which
becomes more and more sophisticated’” over time. R.
116 at 17 (quoting Owens v. United States, 221 F.2d
351, 354 (5th Cir. 1995)).
Third, O’Brien argues that her presence in each
of the transactions alone is not enough to establish a
scheme, citing United States v. Mealy, 851 F.2d 890,

App.30a
896 (7th Cir. 1988). R. 277 at 17-18. For starters, Mealy
addressed the standard for a “wheel conspiracy.” 851
F.2d at 896. It did not address what constitutes a
scheme. A scheme can be “unified by the presence of
the defendant... in each alleged act of fraud.” United
States v. Brown, 894 F. Supp. 1150, 1155 (N.D. Ill.
1995) (finding “the conspiracy cases cited by defend­
ants,” including a case addressing the standard for a
wheel conspiracy, “inapplicable to the government’s
instant allegation of a common scheme of bank
fraud”). Moreover, as described above and as the
Court found in its duplicity ruling (R. 116 at 9-17),
O’Brien’s presence was far from the only factor uniting
the transactions.
Fourth, O’Brien maintains that “[t]he government’s
decision not to call Bartko to testify as to any of the
transactions . . . precluded the jury from finding she
had any role in any part of the alleged scheme.” R. 277
at 14; see also R. 288 at 6. But the government was
not required to introduce certain types of evidence—
namely, Bartko’s testimony—to establish that Bartko
played a role in the scheme. The government
introduced significant documentary evidence showing
Bartko’s role, including: (l) the 2005 loan applications
identifying Bartko as the “interviewer” (GX 46th St.
Refinance 2; GX 54th St. Refinance 2); (2) the two
checks for more than $70,000 from O’Brien to Bartko
listing the two property addresses on them and dated
the day before the 2007 closings (GX 46th St Sale 17;
GX 54th St. Sale 8); (3) the $4,000 check dated the day
of the 2007 closings from O’Brien to Kwan, which
Kwan endorsed over to Bartko (GX 54th St. Sale 9);
(4) the acknowledgments identifying Bartko as a
buyer (GX Acknowledgments 1 and 2); and (5) Kwan’s

App.31a

quit claim deeds transferring the properties to Bartko
after the 2007 closings (GX CCRD 1 and 2). The jury
reasonably concluded based on this evidence that
Bartko participated in the scheme.
Fifth, O’Brien emphasizes that the government
did not present evidence showing Bartko’s involvement
in the 2004 and 2006 transactions. As this Court
explained in its duplicity ruling, Bartko did not need
to know about the 2004 and 2006 transactions for
them to be part of a single scheme. R. 116 at 11-12
(citing United States v. Hollnagel, 2011 WL 3664885,
at *11 (N.D. Ill. Aug. 19, 2011) (rejecting argument
that because the indictment did not allege that each
defendant “participated in each of the misrepresenta­
tions and transactions, the [indictment] must allege
separate schemes and therefore fails for duplicity,”
because in a scheme (unlike in a conspiracy), each
participant “need not know about the existence and
activities of the other co-schemers”); Brown, 894 F.
Supp. at 1155 (scheme was “unified by the presence of
the defendant Brown in each alleged act of fraud”; the
fact “that many of the alleged co-schemers were
unaware of the existence of a larger scheme” “is
irrelevant to an allegation of a common scheme”)). The
jury did not need to conclude that Bartko participated
in each transaction to find a scheme.
Sixth, O’Brien argues that the 2006 commercial
line of credit transactions were dissimilar and dis­
connected from the 2004, 2005, and 2007 transactions.
The Court explained in its duplicity ruling that if the
line of credit was used to maintain or cover expenses
for the investment properties, it was sufficiently
related to be part of the scheme. R. 116 at 10-11.
O’Brien acknowledges that the government introduced

App.32a

a summary chart and testimony by Special Agent
Donald Kaiser supporting that at least two of the
advances on the commercial line of credit were related
to the properties: “a payment for the 46th Street prop­
erty in the amount of $2,457.91 on January 5, 2007,
and a mortgage payment for the 54th Street property
in the amount of $1,689.96, also on January 5, 2007.”
R. 277 at 15 (citing GX Summary 5); Tr. 930. The gov­
ernment also introduced O’Brien’s bank records
reflecting advances on the 2006 loan, with a hand­
written circle around numerous advances and with
the following handwritten note appearing to be a
description of all the circled advances: “823 W. 54th
Street rehab-labor.” GX O’Brien 39. A rational juror
could conclude based on this evidence that the 2006
transactions were part of the scheme.
Seventh, O’Brien emphasizes that Citibank was
not involved in the 2004, 2005, and 2006 transactions;
it was involved only in 2007. But there is no require­
ment that the same victim be involved in all of the
transactions in a scheme. To the contrary, as this
Court explained in its duplicity ruling, courts have
found that schemes had an adequate nexus where
they involved the same class of victims, as they did
here (lenders). R. 116 at 9-10, 14 (collecting cases).5
5 The Court disagrees with O’Brien that the government’s refer­
ences to a scheme to defraud “lenders” throughout the trial
“treated lenders as the equivalents of financial institutions” and
allowed the jury to convict based on “a scheme to defraud
‘lenders.’” R. 288 at 12. The government accurately described the
class of victims of the scheme it alleged as ‘lenders.” And the jury
instructions ensured that the jury specifically found: (l) that
“[t]he scheme affected Citibank, N.A., a financial institution” for
purposes of Count I; and (2) that O’Brien “knowingly executed the
scheme” by causing “Citibank, N.A., a financial institution” to

App.33a

Eighth, O’Brien argues that the 2007 transactions
were nothing like the 2004, 2005, and 2006 transactions
and so could not constitute part of the same scheme.
According to O’Brien, nothing untoward happened in
2007. O’Brien emphasizes that according to the gov­
ernment’s own witnesses, O’Brien did not have access
to Kwan’s 2007 loan packages, and Kwan’s loans were
originated by a company different than the company
where O’Brien and Bartko worked together. R. 277 at
16. O’Brien therefore argues that “Where was zero
evidence that Ms. O’Brien had anything to do with
Kwan’s loans.” Id. O’Brien further claims there was no
evidence that Kwan was a straw buyer and not a legit­
imate buyer.
These arguments ignore: (l) the HUD-ls for the
purchases, which O’Brien signed and which identified
Kwan as the buyer (GX 46th St. Sale 1; GX 54th St.
Sale l); (2) the acknowledgements signed by O’Brien,
Bartko, and Kwan identifying Bartko as a buyer, con­
trary to the HUD-ls (Acknowledgment 1 & 2); (3) the
checks O’Brien wrote to Bartko on the day before the
closing with the addresses of the two properties
written on top, which were not disclosed in the HUDls (GX 46th St. Sale 17; GX 54th St. Sale 8); and (4)
Kwan’s quit claim deeds transferring the properties to
Bartko shortly after closing (GX CCRD 1 and 2). Based
on this evidence, the jury could have reasonably
fund a loan for purposes of Count II. R. 229 at 21-22 (emphasis
added). The same reasoning applies to O’Brien’s complaints
about the government’s shorthand references to “Citi” or the “Citi
entities” during trial. The instructions made clear when an
element needed to be proven with respect to Citibank specifically,
and O’Brien’s counsel highlighted these points and the differences
between Citibank and CitiMortgage throughout trial.

App.34a
inferred that Kwan was a straw buyer and Bartko was
the true buyer. It also could have reasonably inferred
O’Brien’s knowledge of the full scope of the transac­
tions, especially based on her checks to Bartko. The fact
that neither Bartko nor Kwan testified does not
render the jury’s reliance on this evidence mere spe­
culation, as O’Brien argues. Documentary evidence is
not inherently less valid than testimonial evidence.
O’Brien’s final challenge to the scheme element
really amounts to improper re-argument of the evidence
related to the 2007 transactions in the light most
favorable to O’Brien. This is improper. As explained
above, “[slorting the facts and inferences is a task for
the jury,” Warren, 593 F.3d at 547, and the Court may
not “reassess the weight of the evidence” on a motion
for judgment of acquittal. Arthur, 582 F.3d at 717.6
The government presented sufficient evidence of a
scheme to support O’Brien’s convictions on both counts.
b. Alleged Variance
O’Brien also says a material variance between
the indictment allegations and the proof at trial related
6 This same reasoning forecloses other points O’Brien makes
about the 2007 evidence. She claims the checks from O’Brien to
Bartko were not kickbacks, as the government characterized
them during trial, because they were written on O’Brien’s own
account, “which is the antithesis of attempting to conceal
payments.” R. 277 at 17. O’Brien further argues that O’Brien
may not have thought the checks needed to be disclosed on the
HUD-ls because they were not deposited until after closing. Id.
And she emphasizes that the acknowledgements were notarized
at closing, meaning that Bartko’s status as a buyer was disclosed.
O’Brien made these arguments to the jury, and the jury rejected
them. This was not unreasonable. The Court may not reweigh
the evidence.

App.35a

to the scheme element prejudiced her. Specifically, she
maintains that the indictment alleged that O’Brien and
Bartko engaged in a scheme to defraud that began in
2004 and continued until 2007, but the proof at trial
established that Bartko was involved only between
2005 and 2007. R. 277 at 43.
A variance arises “when the facts proved at trial
differ from those alleged in the indictment.” U.S. v.
Scheuneman, 712 F.3d 372, 378 (7th Cir. 2013). A
variance constitutes error only if it “change [s] an
essential or material element of the charge so as to
cause prejudice to the defendant.” Id. at 379. An
essential or material element of the crime “is one
whose specification with precise accuracy is necessary
to establish the very illegality of the behavior and thus
the court’s jurisdiction.” United States v. Auerbach,
913 F.2d 407, 411 (7th Cir. 1990).
O’Brien’s variance argument fails on multiple
grounds. For starters, it is questionable whether there
was any variance between the indictment and the
proof at trial. Although the indictment contains one
sentence broadly characterizing the scheme as one
“[bjeginning in or about 2004, and continuing at least
in or about 2007” and involving “JESSICA ARONG
O’BRIEN and MARIA BARTKO,” the detailed allega­
tions in the indictment allege Bartko’s participation
only in the 2005 and 2007 transactions. R. 1
2, 4, 9,
15-22. The evidence at trial was consistent with those
more detailed factual allegations, showing Bartko’s
involvement in the 2005 and 2007 transactions. See
GX 46th St. Refinance 2; GX 54th St. Refinance 2; GX
45th St. Sale 17; GX 54th St. Sale 8; GX 54th St. Sale
9; Acknowledgments 1 and 2.

App.36a

Moreover, even if there was a variance, the
Seventh Circuit has rejected the argument that a vari­
ance as to the year the scheme began is material, so
long as the evidence presented still establishes an
illegal scheme. In United States v. Andry, 666 F.
App’x 550 (7th Cir. 2016), the defendant argued that
“there was a material variance” where “the indictment
charged one scheme running from 2008 to 2012, but
. . . the evidence at trial established multiple smaller
schemes and that [defendant] was only involved in the
scheme running from February 2010 to 2012.” Id. at
552-53. The Court found this argument “foreclosed by
[its] decision” in United States v. White, 737 F.3d 1121
(7th Cir. 2014), which held that “‘it is permissible for
the government to proceed on a subset of the
allegations in the indictment, proving a conspiracy
smaller than the one alleged, so long as that subset is
also illegal.’” Andry, 666 F. App’x at 552-53 (quoting
White, 737 F.3d at 1138).
Here, like in White, any variance as to when
Bartko’s involvement in the scheme began was not
material or prejudicial because the “subset of the
allegations” proven would still be “illegal.” 737 F.3d at
1138. As this Court explained above and in its
duplicity ruling, Bartko did not need to be involved in
the 2004 transactions for the scheme element to be
satisfied. iSeeR. 116 at 11-12.

App.37a

2. Statute of Limitations for Count I: Effect
on Financial Institution
a. Sufficiency of the Evidence
O’Brien next argues that no rational jury could
have found that the scheme affected a financial institu­
tion for purposes of Count I (mail fraud). Because the
government relied on a ten-year statute of limitations
to charge Count I when it did, the government had to
establish that “the offense affect[ed] a financial institu­
tion.” 18 U.S.C. § 3293(2). “Prior to 2009,” when all the
relevant events in this case took place, “the term
‘financial institution’ was defined to include insured
depository institutions of the FDIC [Federal Deposit
Insurance Corporation], but not mortgage lenders.”
Bouchard, 828 F.3d at 124 (citing 18 U.S.C. § 20
(2008)).
Pursuant to the pre-2009 definition of “financial
institution,” Citibank qualifies as a financial institution,
but its loan servicing arm CitiMortgage, standing
alone, does not. See, e.g., Tr. 653-54. For this reason,
the parties heavily contested Citibank’s involvement
in the 2007 transactions during pre-trial proceedings.
If Citibank was not affected by the mail fraud charged
in Count I, the default five-year statute of limitations
would apply to that charge, and the statute of limita­
tions would have expired well before the government
indicted this case. *SIeeR. 201 at 3-4.
Based on evidentiary hearing testimony from Judy
Taylor, a Citibank vice president, as well as sup­
porting records documenting Citibank’s funding of at
least one of the 2007 loans (see, e.g, R. 113 at 78-69,
105; R. 148-1, 148-2, 148-3, 148-4, 148-5, 148-6), the
Court denied O’Brien’s pre-trial motion to dismiss the

App.38a

indictment based on the statute of limitations. R. 201.
The Court allowed O’Brien to continue to pursue
discovery from the Citi entities on this issue up until
right before trial, when the Citi entities produced fur­
ther documents corroborating Taylor’s testimony. See
R. 203-1.
At trial, the government introduced through
Taylor a number of exhibits illustrating the flow of the
money from Citibank to CitiMortgage, funding both a
$292,000 mortgage loan and a $73,000 home equity
loan on the 46th Street property as part of the 2007
sales. Tr. 667-79. Taylor testified that Citibank suffered
actual losses on the 2007 loans. Tr. 677-79. At the con­
clusion of trial, the Court instructed the jury that it
needed to find for purposes of Count I that “[t]he
scheme affected Citibank, N.A., a financial institution.”
R. 229 at 21. It further instructed the jury that “[f]or
purposes of Count One, a scheme affects a financial
institution if it exposes the financial institution to a
new or increased risk of loss. A financial institution
need not have actually suffered a loss in order to have
been affected by the scheme.” Id. at 31.
In her motion for judgment of acquittal, O’Brien
maintains that no rational juror could have found an
effect on Citibank as required for the ten-year statute
of limitations in 18 U.S.C. § 3293(2) to apply. The
Court disagrees.
The Seventh Circuit in United States v. Serpico,
320 F.3d 691, 694-95 (7th Cir. 2003), interpreted the
term “affects a financial institution” in 18 U.S.C.
§ 3293(2) broadly, and affirmed use of the same jury
instruction the Court gave in this case. Serpico, 320
F.3d at 694-95 (approving an instruction stating that
a scheme affects a financial institution if it “exposed

App.39a
the financial institution! ] to a new or increased risk
of loss. A financial institution need not have actually
suffered a loss in order to have been affected by the
scheme.”). Other circuits have likewise recognized the
wide reach of 18 U.S.C. § 3293(2). The Third Circuit
rejected the argument that “a fraud perpetrated
against a financial institution’s wholly owned subsid­
iary cannot affect the parent” under § 3293(2) as “a
clearly untenable assumption.” United States v. Pelullo,
964 F.2d 193, 215-16 (3d Cir. 1992); accord United
States v. Bouyea, 152 F.3d 192, 195 (2d Cir. 1998)
(citing Pelullo to “easily reject” the argument that
defrauding a financial institution’s subsidiary was
insufficient as a matter of law to meet the “affect[ing]
a financial institution” requirement in § 3293(2)).
The evidence at trial plainly supported the jury’s
finding that the scheme affected Citibank for purposes
of Count I. Taylor testified not only that Citibank
incurred a risk of loss, but that the 2007 loans resulted
in an actual loss to Citibank. And Taylor testified not
only that CitiMortgage was involved in funding the
loans as Citibank’s “wholly owned subsidiary” (Tr. 741),
but that Citibank was the actual lender on one of the
loans, and the funds for both loans came directly from
Citibank. Specifically, Taylor testified that: (l)
Citibank was the lender on the $73,000 loan for the
46th Street sale (Tr. 643); (2) CitiMortgage was the
lender on the $292,000 loan for the 46th Street sale,
but the money for that $292,000 loan came from
Citibank (Tr. 643, 656-60); (3) Citibank had to foreclose
on the 46th Street property at a “significant loss” to
Citibank (Tr. 677); and (4) the $73,000 loan was a
complete loss, and the proceeds from the foreclosure

App.40a

sale were insufficient to cover the remaining balance
on the $292,000 loan (Tr. 677-79).
O’Brien claims that Taylor’s testimony was
inadmissible hearsay. It was not. Rather than offering
out-of-court statements for their truth, Taylor testified
about already admitted bank records based on her
personal knowledge as a long-time Citibank employee.
O’Brien further argues that the bank records
regarding the funding of the loans were “ridiculously
confusing” because they “show hundreds of millions of
dollars of transfers, thru all sorts of channels.” R. 277
at 21 n.13. But Taylor walked the jury through these
documents in her testimony, identifying the relevant
parts for the jury. She explained that on the day of
closing, the funds went from (a) a Citibank Treasury
account (namely, “Citibank N.A. for USCGB
Treasury”?) to (b) a CitiMortgage account to (c) another
CitiMortgage account (a CitiMortgage Wholesale
account) to (d) the settlement agent/title company.
Tr. 658-60, 667-74. The same process took place for
both the $292,000 loan and the $73,000 loan. Tr. 660.
O’Brien says this case is like United States v.
Irvin, 682 F.3d 1254 (10th Cir. 2012), where the Tenth
Circuit, in the course of upholding a conviction on a
bank fraud count, explained in dicta that defendant
“appear[ed]” to be “correct” that a mortgage loan was
7 O’Brien points out that Taylor did not know specifically what
the acronym “USCGB” stands for, and guessed it was “U.S.
Consumer Banking Group Treasury.” Tr. 740. But Taylor’s
uncertainty about this acronym is beside the point. She testified
unequivocally that the money came from a Citibank account,
which is supported by the fact that the account has “Citibank,
N.A.” in the name—i.e., “Citibank N.A. for USCGB Treasury.”

App.41a
never owned by a parent financial institution, and
instead “was strictly the property of’ the mortgage
corporation subsidiary. Id. at 1272. But in Irvin, the
mortgage company subsidiary drew on a line of credit
made available by the parent, bundled loans “into
mortgage-backed securities within thirty to forty-five
days of their origination,” sold the loans “to investment
banks on the secondary market,” and then used the
proceeds to repay its debts to the parent. Id. The
parent “played no role” in the process. Id. Here, by
contrast, the evidence supported direct involvement
by Citibank, including supplying the funds on the day
of the closing and taking the actual losses on the 46th
Street loans in 2007.8 In any event, Irvin addressed
the bank fraud statute under 18 U.S.C. § 1344, not the
level of proof required to show an effect on a financial
institution for purposes of the ten-year statute of lim­
itations for mail or wire fraud.
Finally, O’Brien argues there was no evidence
that O’Brien knew her conduct affected a financial
institution. But for purposes of Count I, the government
did not need to prove that O’Brien knew her scheme
affected a financial institution. In United States v.
Marr, 760 F.3d 733 (7th Cir. 2014), the Seventh
8 This evidence also distinguishes this case from United States
v. Bennett, 621 F.3d 1131 (9th Cir. 2010), another case cited by
O’Brien. In Bennett, there was no evidence that the parent com­
pany owned or controlled the subsidiary’s loan assets, and the
Ninth Circuit explained that “a parent corporation does not own
the assets of its wholly-owned subsidiary by virtue of that rela­
tionship alone.” Id. at 1136-38. Here, the government did not rely
on the subsidiary-parent relationship alone to prove that
Citibank owned the assets—it introduced Taylor’s testimony and
documents supporting that the funding for the 2007 loans in fact
came from the parent Citibank.

App.42a

Circuit “jointed] the reasoning of [its] sister circuits”
in holding that the wire and mail fraud statutes “only
require [] the government to prove that a defendant
intended for his or her scheme to defraud someone, a
financial institution does not need to be the intended
victim.” Id. at 743-44.9 As such, the Marr court
explained that “the government needed only to prove
that Marr’s scheme to defraud affected Palos Bank,
not that Marr intended to defraud Palos Bank.” Id. at
744. The “‘object of the fraud is not an element of the
offense.”’ Id. (quoting Pelullo, 964 F.2d at 216). Nor
does 18 U.S.C. § 3293(2), the ten-year statute of limi­
tations for wire and mail fraud affecting a financial
institution, refer to knowledge or in any way add an
element requiring the defendant to know that a
financial institution is affected. The evidence was
more than sufficient for the jury to find an effect on a
financial institution satisfying § 3293(2).
b. Alleged Vagueness
O’Brien also makes a vagueness challenge to the
“affect [ing] a financial institution” language in
§ 3293(2). The Fifth Amendment’s due process clause
“gives rise to the general rule that prohibits the gov­
ernment from imposing sanctions under a criminal law
so vague that it fails to give ordinary people fair notice
of the conduct it punishes, or so standardless that it
invites arbitrary enforcement.” United States v.
9 Although the Marr court addressed the wire fraud statute, 18
U.S.C. § 1343, its holding applies equally to the mail fraud
statute at issue in Count I, 18 U.S.C. § 1341. See, e.g., United
States v. White, 737 F.3d 1121, 1130 n.4 (7th Cir. 2013) (“cases
construing the mail fraud statute (18 U.S.C. § 1341) are applicable
to the wire fraud statute (18 U.S.C. § 1343),” and vice versa).

App.43a

Coscia, 866 F.3d 782, 791 (7th Cir. 2017), reh’g and
suggestion for reh’g en banc denied (Sept. 5, 2017),
cert, denied, 138 S. Ct. 1989 (2018). “To satisfy due
process, a penal statute [must] define the criminal
offense [l] with sufficient definiteness that ordinary
people can understand what conduct is prohibited and
[2] in a manner that does not encourage arbitrary and
discriminatory enforcement.” Skilling v. Unites States,
561 U.S. 358, 402-03 (2010).
Notably, O’Brien does not point to any case addres­
sing or sustaining a vagueness challenge to the “affects”
provision in § 3293(2). And courts including the Seventh
Circuit have had little trouble interpreting the word
“affects” in the statute. See Serpico, 320 F.3d at 694
(conduct “affects” a financial institution if it exposes
that institution to an “increased risk of loss”); see also,
e.g, United States v. Mullins, 613 F.3d 1273,1278 (10th
Cir. 2010) (“While Congress certainly could have
extended the limitations period only when wire fraud
‘causes a loss’ to a financial institution, it chose
instead to use the considerably broader term “affects.’
And that means simply to ‘make a material impres­
sion on; to act upon, influence, move, touch or have an
effect on,’ I Oxford English Dictionary 211 (2d ed.
1989), or perhaps more appositely to this case, ‘to have
a detrimental influence on,’ Webster’s Third New
International Dictionary 35 (2002).”).
The cases on which O’Brien relies in support of
her argument do not find or suggest that the word
“affects” in § 3293(2) is unconstitutionally vague. To
the contrary, they interpret the word “affects” and set
limits on its boundaries. See United States v. Agne,
214 F.3d 47, 52 (1st Cir. 2000) (explaining that there
was no evidence of even a risk of loss to a financial

App.44a

institution in that case, and “at minimum there needs
to be some impact on the financial institution to sup­
port a conviction”); United States v. Ubakanma, 215
F.3d 421, 426 (4th Cir. 2000) (explaining in a case
where the government conceded lack of effect on a
financial institution that “a wire fraud offense under
section 1343 ‘affected’ a financial institution only if
the institution itself were victimized by the fraud, as
opposed to the scheme’s mere utilization of the
financial institution in the transfer of funds”).
In any event, “[a] plaintiff who engages in some
conduct that is clearly proscribed cannot complain of
the vagueness of the law as applied to the conduct of
others.” Vill. ofHoffman Estates v. Flipside, Hoffman
Estates, Inc., 455 U.S. 489, 495 (1982). As the discus­
sion above shows, the evidence at trial supported a
finding by the jury not just of a risk of loss to
Citibank or an effect on Citibank through its mortgage
servicing arm CitiMortgage, but an actual loss to
Citibank specifically. O’Brien’s conduct thus clearly
fell within the boundaries proscribed by courts for
“affect[ing]” a financial institution, and her vagueness
challenge necessarily fails.
3. Count II: Sufficiency of the Evidence
O’Brien next claims the jury had insufficient evi­
dence to convict her on Count II. Count II charged
O’Brien with both sections of the bank fraud statute.
That statute provides:
Whoever knowingly executes, or attempts to
execute, a scheme or artifice—
(l) to defraud a financial institution; or

App.45a

(2) to obtain any of the moneys, funds, credits,
assets, or securities, or other property owned
by, or under the custody or control of, a finan­
cial institution, by means of false or fraudu­
lent pretenses, representations, or promises;
shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.
18 U.S.C. § 1344. The Seventh Circuit has confirmed
that both sections of § 1344 may be charged in a single
count, and it has explained that “proof of any one of
those acts conjunctively charged may support a con­
viction.” United States v. LeDonne, 21 F.3d 1418, 1427
(7th Cir. 1994).
a. Intent
O’Brien first claims lack of proof of intent. As the
Supreme Court held in Loughrin v. United States, 134
S. Ct. 2384 (2014), proof of specific intent to defraud a
financial institution is not required under § 1344(2),
but it is required under § 1344(l). Id. at 2387-90. For
this reason, O’Brien’s threshold argument that she
should be acquitted on Count II because “no rational
jury could find that Ms. O’Brien specifically intended
to defraud Citibank, N.A.” (R. 277 at 27) is misplaced.
The jury rationally could convict O’Brien under
§ 1344(2) without finding specific intent to defraud.
O’Brien claims that because Bartko and Kwan did
not testify and because O’Brien did not sign the HUD1 or the note for the $73,000 loan naming Citibank as
the lender, there was insufficient evidence for the jury
to find the requisite intent under either § 1344(l) or
§ 1344(2). The Court disagrees. A rational jury could

App.46a

have convicted O’Brien of bank fraud in Count II
based under either prong of § 1344.
Section 1344(2). For purposes of § 1344(2), the
government needed to prove a scheme to defraud with
intent to obtain property owned by, or in the custody
or control of, a financial institution by means of false
or fraudulent pretenses, representations, or
promises—it did not need to find specific intent to
defraud a financial institution. Loughrin, 134 S. Ct. at
2389. A reasonable jury could have inferred O’Brien’s
intent to obtain property owned by or in the control of
a financial institution based on evidence regarding
the $73,000 loan naming Citibank (undisputedly a
financial institution) as the lender. Although O’Brien
did not sign the HUD-1 or the note for the $73,000
loan (GX 46th St. Sale 2; GX 46th St. Sale 7) and
Kwan and Bartko did not testify, a reasonable jury
could have inferred O’Brien’s knowledge of that loan
and its funding based on the documentary evidence.
The HUD-1 that O’Brien did sign, for the $292,000
loan, also listed the $73,000 loan. GX 46th St. Sale 1.
The loans closed on the same day, had the same closer,
and O’Brien was present as the seller. Additionally,
according to the HUD-ls, O’Brien acted as the seller’s
attorney for both the 46th and 54th Street sales and
prepared corresponding closing statements. GX O’Brien
8 and 9.
O’Brien emphasizes that testimony supported
that O’Brien would not have seen Kwan’s loan docu­
ments themselves. Tr. 587, 732. But O’Brien’s status
as the seller’s attorney and her signature on the HUD1 listing the $73,000 loan, along with the acknowledg­
ments and checks suggesting that O’Brien knew that
Bartko was a buyer and paid Bartko money to buy the

App.47a

properties, allowed the jury to draw the inference that
O’Brien had intimate knowledge of the 2007 transac­
tions’ nature, including the funding of the $73,000
loan by Citibank. Such an inference would support a
finding that O’Brien intended to obtain property
owned by or in the custody or control of Citibank.
The jury also could have found that O’Brien had
intended to obtain property owned by or in the custody
or control of Citibank based on the evidence regarding
the $292,000 loan. It is true that the HUD-1 for the
loan
$292,000
identified
CitiMortgage—not
Citibank—as the lender (GX 46th St. Sale l); the title
commitment form said the same (Defense Exhibit 70).
But Taylor testified that Citibank ultimately funded
this loan. Tr. 643, 656-60, 677. The jury could have
inferred O’Brien’s familiarity with Citibank and
CitiMortgage as its loan servicing arm based on the
ample evidence at trial regarding O’Brien’s background
as a licensed loan originator, a licensed real estate
broker, the owner of a licensed real estate company,
and a licensed attorney. And the evidence showed that
O’Brien had significant prior experience with
Citibank in particular. Taylor testified that Citibank
purchased O’Brien’s loan on the 46th Street property
as a successor lender and required O’Brien to sign an
updated Uniform Residential Loan Application when
it did. See GX 46th St. Purchase 1-10; Tr. 705-23. All
of this evidence would have allowed a reasonable juror
to infer that O’Brien understood that the fraudulentlyobtained funds used to fund the $292,000 loan ulti­
mately were owned by or in the custody or control of
Citibank, and that she intended to obtain those funds.
O’Brien relies on the Second Circuit’s decision in
Bouchard, 828 F.3d 116, in support of her argument

App.48a

that the evidence was insufficient for the jury to infer
that O’Brien intended to obtain Citibank property. In
Bouchard, the Second Circuit found a lack of evidence
satisfying § 1344(2) where the evidence showed that
the defendant knew about the mortgage company’s
involvement, but not about the parent bank’s involve­
ment, and the offenses occurred before the 2009
amendments to the definition of “financial institution”
to include mortgage companies. 828 F.3d at 126-27.
But as the Bouchard court explained, “the Govern­
ment might have been able to prove that Bouchard
knew that money from mortgage lenders came from
banks by virtue of his knowledge of the industry.” Id.
at 127. In that case, the government presented no such
proof. Id. Additionally, Bouchard involved entities
without an obvious corporate relationship: a mortgage
broker named BNC that was owned by Lehman
Brothers, a financial institution. Id. at 120.
Here, unlike in Bouchard, the government pre­
sented evidence of and emphasized throughout trial
O’Brien’s considerable knowledge of the industry. And
this case involves entities with an obvious corporate
relationship: Citibank and CitiMortgage.
The Eleventh Circuit recently distinguished
Bouchard and affirmed a conviction under § 1344(2)
in a case similar to this one. See United States v.
Rabuffo, 716 F. App’x 888 (llth Cir. 2017). In Rabuffo,
the defendant was charged under both clauses of
§ 1344, and the evidence at trial showed that the fraud
scheme was aimed at SunTrust Mortgage. Id. at 897.
Like here and in Bouchard, the loans in Rabuffo occur­
red before Congress amended the bank fraud statute
to specify that the mortgage companies qualified as
“financial institutions.” Id. The Eleventh Circuit found

App.49a
the evidence sufficient to support the conviction where,
like here but unlike in Bouchard, the evidence sup­
ported that the defendant was “experienced” in the
real estate industry. Id. at 898. The court explained
that “defendant’s experience, involvement in the
scheme, and interactions with SunTrust Bank pre­
sented sufficient evidence that he was aware that the
scheme would affect SunTrust.” Id. at 899. Moreover,
because “the name[ ] of the wholly-owned subsidiary]
at issue [SunTrust Mortgage] w[as] substantially
similar to the[ ] parent financial institution [SunTrust
Bank],” it was “reasonable to infer ... that the [d]efendant[] w[as] aware that the fraudulently obtained
funds were owned or were under the custody or control
of the parent financial institution[ ].” Id.
Like in Rabuffo, a rational jury could have infer­
red based on O’Brien’s involvement in the scheme, her
industry knowledge, her experience with Citibank spe­
cifically, and the similarity in the Citibank and CitiMortgage names, that O’Brien knew that the funds for
either the $73,000 loan, the $292,000 loan, or both,
were owned by or in the custody or control of the
parent financial institution Citibank. A rational jury
therefore could have found the requisite intent by
O’Brien to obtain that property under § 1344(2) through
her involvement in the 2007 loans.
Section 1344(l). A rational jury also could have
found that O’Brien had the requisite specific intent to
defraud a financial institution required under § 1344
(l). See Loughrin, 134 S. Ct. at 2387-90. “The ‘scheme
to defraud’ clause of Section 1344(l) is to be interpreted
broadly.” United States v. Brandon, 298 F.3d 307, 311
(4th Cir. 2002). Evidence that the defendant inten­
tionally exposed a financial institution to a risk of loss

App.50a
is “one way of establishing intent to defraud” a
financial institution for purposes of § 1344(l). United
States v. Hoglund, 178 F.3d 410, 413 (6th Cir. 1999).
The same reasoning described above with respect
to § 1344(2) could have led a reasonable jury to make
the further inference that O’Brien specifically intended
to expose a financial institution (Citibank) to a risk of
loss under § 1344(l). The government’s basic proof on
both §§ 1344(l) and (2) was the same. See also
Loughrin, 134 S. Ct. at 2390 n.4 (“the overlap between
the two clauses [of Section 1344] is substantial”).
Specifically, based on O’Brien’s signature on the
HUD-1 for the $292,000 loan disclosing the $73,000
loan and her close involvement in the transaction as
seller and seller’s attorney, the jury could infer that
she knew Citibank was the lender on the $73,000 loan
and specifically intended to expose Citibank to a risk
of loss. Or, based on O’Brien’s signature on the HUD1 for the $292,000 loan, the jury could infer that
O’Brien specifically intended to expose CitiMortgage
to a risk of loss. And based on the evidence of O’Brien’s
knowledge of the industry and prior experience with
Citibank, combined with the similarity in the names of
Citibank and CitiMortgage, the jury could have inferred
that O’Brien also specifically intended to expose
Citibank to a risk of loss through that transaction. See,
e.g, United States v. Edelkind, 467 F.3d 791, 797-98 (1st
Cir. 2006) (§ 1344(l) applied to a scheme where the
defendant fraudulently obtained a loan from an
uninsured subsidiary of an insured bank in an
“integrated transaction” where the bank was to
purchase the loan after its issuance, even if the
defendant did not know about the arrangement for the
later purchase of the loan).

App.51a
O’Brien again points to Bouchard, where the
Second Circuit found insufficient evidence under § 1344
(l) because the fraud was directed at BNC, a wholly
owned subsidiary of Lehman Brothers. 828 F.3d at
124-26. The Second Circuit explained that “a defend­
ant cannot be convicted of violating § 1344(l) merely
because he intends to defraud an entity, like BNC,
that is not covered by the statute.” Id. at 125. But in
Bouchard, the government “concede [d] there was no
evidence that [the defendant] specifically intended to
defraud Lehman Brothers” or was aware of its role. Id.
at 124. Here, by contrast, the evidence described above
could have supported the inference that O’Brien knew
about Citibank’s role and thus specifically intended to
cause a risk of loss to Citibank.
b. Causation of Execution
Relatedly, O’Brien argues there was insufficient
evidence for a rational jury to find that O’Brien
caused Citibank to fund the $73,000 loan. The Court
instructed the jury that it had to find, for purposes of
Count II, that O’Brien “on or about April 16, 2007,
caus[ed] Citibank, N.A., a financial institution, to
fund a mortgage loan in the amount of approximately
$73,000 for the purchase of the 625 West 46th Street,
Chicago, Illinois.” R. 229 at 22. O’Brien says the fact
that O’Brien did not sign the HUD-1 for the $73,000
loan means there was a failure of proof on this issue.
As O’Brien acknowledges, however, “[t]he HUD-1 that
Ms. O’Brien and Kwan both signed included both loan
amounts of $292,000 and $73,000.” R. 277 at 35
(emphasis in original). And Taylor testified that Citi­
bank in fact funded the $73,000 loan as part of the
2007 purchase of the 46th Street property. Thus,
there was sufficient evidence for the jury to infer that

App.52a

O’Brien’s sale of her 46th Street property caused
Citibank to fund the $73,000 loan.
II.

Motion for a New Trial
A. Standard

Federal Rule of Criminal Procedure 33 provides
that, “[u]pon the defendant’s motion, the court may
vacate any judgment and grant a new trial if the
interest of justice so requires.” “[Clourts have inter­
preted [Rule 33] to require a new trial in the interests
of justice in a variety of situations in which the sub­
stantial rights of the defendant have been jeopardized
by errors or omissions during trial.” United States v.
Eberhart, 388 F.3d 1043, 1048 (7th Cir. 2004), over­
ruled on other grounds, 546 U.S. 12 (2005). “A jury
verdict in a criminal case is not to be overturned
lightly, and therefore a Rule 33 motion is not to be
granted lightly.” Id. The court may grant a new trial
if the jury’s “verdict is so contrary to the weight of the
evidence that a new trial is required in the interest of
justice.” United States v. Washington, 184 F.3d 653,
657 (7th Cir. 1999). Put another way, “[t]he court
should grant a motion for a new trial only if the evi­
dence preponderate [s] heavily against the verdict,
such that it would be a miscarriage of justice to let the
verdict stand.” United States v. Swan, 486 F.3d 260,
266 (7th Cir. 2007). “In order to receive a new trial
based on erroneous instructions, a defendant must
show both that the instruction did not adequately state
the law and that the error was prejudicial to [her]
because the jury was likely to be confused or misled.”
United States v. White, 443 F.3d 582, 587 (7th Cir.
2006).

App.53a

B. Application^)
O’Brien makes four basic arguments in her motion
for a new trial. First, O’Brien says the instructions
allowed the jury to convict her based on conduct outside
the statute of limitations. Second, O’Brien maintains
that all of the evidence regarding the 2004, 2005, and
2006 transactions was inadmissible propensity evi­
dence under Federal Rule of Evidence 404(b). Third,
O’Brien challenges the pattern instructions the Court
gave with respect to the intent element of Count II.
And fourth, O’Brien challenges the Court’s decision to
admit the quit claim deeds transferring the invest­
ment properties from Kwan to Bartko shortly after
the 2007 closings.
1. Statute of Limitations and Scheme
O’Brien’s motion for a new trial begins with a
convoluted argument that primarily pertains to Count
II (bank fraud). O’Brien focuses on the fact that bank
fraud is complete upon each execution and is not a
continuing offense. E.g., United States v. Anderson,
188 F.3d 886, 888 (7th Cir. 1999). She notes that any
pre-2007 executions of bank fraud were therefore
“completed offenses long before the [2007] sales.” R. 277
at 46. She then emphasizes that the Court instructed
the jury that it had to find at least one “materially false
or fraudulent pretense, representation, or promise”
charged in the indictment to convict her of bank fraud
(and mail fraud as well), but that it did not need to find
10 In addition to the specific grounds on which she moves for a
new trial, O’Brien asks to preserve her pre-trial motions to
dismiss the indictment denied by the Court (R. 45; R. 131; R. 139;
R. 141; R. 214). R. 277 at 44. Those motions are preserved.

App.54a

all of them. R. 229 at 21-22, 25, 32. O’Brien explains
that the jury therefore could have convicted her of bank
fraud by finding that she made a false statement in a
2004, 2005, or 2006 execution of bank fraud, and not
necessarily the 2007 execution of bank fraud. O’Brien
maintains that “the jury [instead] should have been
instructed that it had to find a materially false or
fraudulent pretense, representation, or promise
occurred after April 11, 2007.” R. 288 at 31. Otherwise,
she says, “the indictment and instructions allowed
Ms. O’Brien to be convicted for conduct that was
barred by the statute of limitations.” R. 277 at 51.
This argument can be broken down into several
parts. First, there is the legal question of what conduct
must fall within a statute of limitations in order to
bring an entire scheme within the statute of limita­
tions, and in particular a bank fraud scheme for which
each execution is a complete crime. The Seventh Circuit
answered this question in United States v. Longfellow,
43 F.3d 318, 319-25 (7th Cir. 1994), a case addressing
an indictment charging multiple executions of bank
fraud as part of a single scheme. The defendant in
Longfellow made a series of improper loans to individ­
uals so they could purchase the defendant’s land. Id.
at 319. Although all of the original loans occurred
more than five years before the defendant was indicted,
outside the limitations period, the defendant refinanced
one of the loans within the limitations period, and the
government charged that refinancing as an execution
of the defendant’s scheme to defraud. Id. at 322. The
Seventh Circuit held that the charging of one execution
within the statute of limitations brings the entire
scheme within the statute of limitations. Id. at 32224. The fact that “only one or two executions fell

App.55a
within the Statute of Limitations,” did “not detract
from the entire pattern of loans [ ] being a scheme, and
rendered defendant] no less culpable for that entire
scheme.” Id. at 322-25. H
The Seventh Circuit did not find it to be a problem
in Longfellow that prior, complete executions of bank
fraud outside the statute of limitations were charged
as part of a single scheme. And for good reason. As the
Court explained in its duplicity ruling, “‘an act which
can be viewed as an independent execution of a
scheme’ and thus charged as a separate count,” as
each execution of bank fraud could be, “does not need to
be charged in a separate count.” R. 116 at 5 (quoting
United States v. King, 200 F.3d 1207, 1213 (9th Cir.
1999)); see also United States v. Hammen, 977 F.2d
379, 383 (7th Cir. 1992) (in the context of mail and
bank fraud, explaining that although “for each count of
conviction, there must be an execution,” “the law does
not require the converse: each execution need not give
rise to a charge in the indictment”). In other words,
11 O’Brien’s attempts to distinguish Longfellow axe misplaced.
She says Longfellowinvolved the “same victim” “suffering through
a unitary, continuing course of conduct,” and this case did not. R.
288 at 30. But this Court already has explained above and in its
duplicity ruling why the various transactions did not need to
involve the same victim to be part of a single scheme. O’Brien
further emphasizes that Longfellow explained that the execution
falling within the statute of limitations had to be “a separate act
that created a new risk” for the bank. 43 F.3d at 325. She says
the 2004, 2005, and 2006 transactions did not place Citibank at
a new risk of loss because they involved different lenders. But as
Longfellow shows, what matters is that the execution falling
within the statute of limitations was a separate act exposing
Citibank to a new risk of loss. And again, Taylor’s testimony sup­
ported that the 2007 executions not only placed Citibank at a risk
of loss but caused Citibank to suffer an actual loss.

App.56a

“[i]f several fraudulent executions are part of the same
scheme, the government. . . has discretion to (a)
charge each execution in a separate count or (b) ‘allege
only one execution of an ongoing scheme that was
executed numerous times.’” R. 116 at 5 (quoting Hammen, 977 F.2d at 383). Thus, as this Court concluded
in its duplicity ruling, the government properly charged
only one “execution” of the scheme in each of Counts I
and II—the 2007 executions with respect to the 46th
Street loans. Id. at 4-6 (citing R. 1 at 9, 10). And the
fact that these executions fell within the statute of
limitations brings the entire scheme within the
statute of limitations. Id.
O’Brien’s reliance on Anderson, 188 F.3d 886,
and United States v. Yashar, 166 F.3d 873, 880 (7th
Cir. 2009), in support of her contrary argument is
misplaced. In Anderson, the Seventh Circuit reversed
a bank fraud conviction because the entire fraud was
complete prior to the expiration of the statute of limi­
tations; no “execution” occurred within the statute of
limitations. 188 F.3d at 891. In Yashar, the Seventh
Circuit explained that for a non-continuing offense, the
limitations period begins to run when all elements of
the offense are established; “if all elements of the
crime were met” prior to the statute of limitations cut
off, then the indictment would not be timely, but if “a
necessary element of the offense” took place within
the limitations period, the indictment would be
timely. 166 F.3d at 878-80. Here, the indictment
charged an execution of bank fraud—i.e., a necessary
element of the bank fraud scheme charged—within
the statute of limitations.
The second question embedded in O’Brien’s argu­
ment is whether the jury instructions accurately

App.57a

reflected the law just recited and ensured that the
jury convicted O’Brien based on an execution falling
within the statute of limitations. They did.
To ensure that the jury convicted O’Brien based
on the 2007 executions falling within the statute of
limitations, the Court added the execution language
from the indictment to the pattern elements instruc­
tions for mail and bank fraud. See R. 229 at 21
(instructing the jury on Count I that it had to find that
“for the purpose of carrying out the scheme or
attempting to do so, the defendant caused the use of a
commercial interstate carrier in the manner charged in
Count One, specifically, on or about April 16, 2007,
caused to be deposited, to be sent and delivered by
commercial interstate carrier, an envelope containing
a payoff check relating to the purchase of the property
located at 625 West 46th Street, Chicago, Illinois”); R.
229 at 22 (instructing the jury on Count II that it had to
find “[t]he defendant knowingly executed the scheme
by, on or about April 16, 2007 causing Citibank, N.A.,
a financial institution, to fund a mortgage loan in the
amount of approximately $73,000 for the purchase of
625 West 46th Street, Chicago, Illinois”). These in­
structions made sure that the jury did not convict
O’Brien based on 2004, 2005, or 2006 executions of the
alleged scheme, and therefore addressed her statute
of limitations concerns. See Sorich v. United States,
709 F.3d 670, 677 (7th Cir. 2013) (“we presume that a
jury follows its instructions”).
The third question embedded in O’Brien’s argu­
ment is whether the Court properly instructed the
jury with respect to the bank fraud count under 18
U.S.C. § 1344 that:

App.58a
For purposes of Count Two ... [i]n considering
whether the government has proven a
scheme to obtain moneys, funds, assets, or
other property from a financial institution by
means of false pretenses, representations,
promises, or concealment of material facts,
the government must prove at least one of
the false pretenses, representations, promises,
or concealment of material facts charged in
the portion of the indictment describing the
scheme beyond a reasonable doubt. However,
the government is not required to prove all
of them.
R. 229 at 32. This instruction is based verbatim on the
Seventh Circuit’s pattern instruction for “18 U.S.C.
§ 1344—Multiple False Statements Charged” (except
that the Court added the words “beyond a reasonable
doubt” at O’Brien’s request). See Seventh Circuit
Pattern Criminal Jury Instructions (2012), p. 414. The
Seventh Circuit “presume [s] that the Pattern Criminal
Jury Instructions for the Seventh Circuit correctly
state the law.” Marr, 760 F.3d at 744. And O’Brien has
not cited any case supporting that this is an incorrect
statement of the law. In other words, as long as the
jury found a scheme and an execution of that scheme
within the statute of limitations, it needed to find only
one of the false statements charged as part of the
scheme beyond a reasonable doubt. It did not need to
find a false statement with respect to the execution
falling within the statute of limitations specifically.
In sum, the entire bank fraud scheme in Count II
(and the mail fraud scheme in Count I) fell within the
statute of limitations as long as the jury found a
scheme and an execution of the scheme within the

App.59a

statute of limitations. The jury instructions ensured
that it did. And the Court properly instructed the jury,
pursuant to the Seventh Circuit’s pattern instruction,
that it had to find only one false representation or
promise alleged in the scheme beyond a reasonable
doubt—not all of them and not any one of them in par­
ticular.
2. Ride 404(b) Evidence
O’Brien further argues that all of the evidence
offered related to the 2004, 2005, and 2006 transactions
was inadmissible propensity evidence under Federal
Rule of Evidence 404(b). But as the Seventh Circuit
explained in United States v. Ferrell, 816 F.3d 433
(7th Cir. 2015), “Rule 404(b) does not apply to direct
evidence of the crime charged.” Id. at 443 (citing
United States v. Adams, 628 F.3d 407, 414 (7th Cir.
2010) (“ [I] f the evidence is admitted as direct evidence
of the charged offense, Rule 404(b) is not applicable.
Specifically, evidence directly pertaining to the defend­
ant’s role in a charged conspiracy is not excluded by
Rule 404(b).”).
Here, evidence of the 2004, 2005, and 2006 trans­
actions was not other acts evidence for purposes of Fed.
R. Evid. 404(b). It was evidence of charged crimes—
namely, evidence of the 2004, 2005, and 2006 transac­
tions that the Court has already found were properly
included as part of the scheme to defraud. There was
therefore no need for the Court to undertake a Rule
404(b) analysis.
O’Brien says she was “prejudice [d]” by the fact
that the Court never had to undertake a Rule 404(b)
analysis. R. 288 at 32. She made the same argument
in her duplicity motion to dismiss. See R. 116 at 22

App.60a

(O’Brien argued that “the indictment prejudices her
by allowing time-barred evidence to be admitted as
probative of a scheme that this Court otherwise may
not admit under . . . [Rule 404(b)]”). And this Court
found that it was within the government’s discretion
to proceed the way it did. Id. at 3-23. The Court noted
that other courts have admitted evidence of transac­
tions outside the statute of limitations as scheme evi­
dence. R. 116 at 22-23 (citing United States v. Grossi,
1995 WL 571417, at *4 (N.D. Ill. Sept. 25, 1995;
Hollnagel, 2011 WL 3664885, at *12). A case on which
O’Brien relies, United States v. Wellman, 830 F.2d
1453 (7th Cir. 1987), likewise explained that conduct
outside the statute of limitations “was highly relevant
to the existence of the very same scheme to defraud
which the mailings in this case were alleged to have
furthered.” Id. at 1464. The Wellman court alterna­
tively explained that the evidence went to the issue of
intent, meaning that it would have been properly
admitted under Rule 404(b) in any event. Id. The
Court makes the same alternative finding here.
3. Intent Instructions for Count II
O’Brien next objects to the intent component of
the Court’s elements instruction on Count II for bank
fraud. That instruction told the jury, in relevant part,
that it had to find:
1.

There was a scheme to defraud a financial
institution or to obtain moneys and property
owned by, or in the custody or control of, a
financial institution by means of false or
fraudulent pretenses, representations or
promises as charged in Count Two of the
indictment; and ....

App.61a

3.

The defendant acted with the intent to
defraud; ....

R. 229 at 22. That instruction, including the intent
element, was based verbatim on the Seventh Circuit
pattern elements instruction for bank fraud under 18
U.S.C. § 1344. Seventh Circuit Pattern Criminal Jury
Instructions (2012), p. 411 (“18 U.S.C. § 1344 Financial
Institution Fraud—Elements”). Again, the Seventh
Circuit “presume [s] that the Pattern Criminal Jury
Instructions for the Seventh Circuit correctly state the
law.” Marr, 760 F.3d at 744.
O’Brien argues that the intent instruction did not
properly account for Loughriris holding that the
intent requirement is different under § 1344(l) than
under § 1344(2)—i.e., § 1344(l) requires specific intent
to defraud a financial institution, but § 1344(2) does
not. 134 S. Ct. 2384. The Court disagrees.
Jury instructions are reviewed “as a whole to deter­
mine whether they fairly and accurately summarize
the law.” United States v. Grady, 746 F.3d 846, 848
(7th Cir. 2014). And here, the combination of several
intent-related instructions given by the Court on
Count II—i.e., the Seventh Circuit pattern elements
instruction for bank fraud under 18 U.S.C. § 1344,
combined with the Seventh Circuit pattern instruc­
tion for the “Scheme—Definition” under 18 U.S.C.
§ 1344—fairly and accurately summarized the law.
Although part 3 of the elements instruction
described the third element of bank fraud more gen­
erally as “the defendant acted with the intent to
defraud,” part 1 told the jury that it had to find “a
scheme to defraud a financial institution [i.e., the lan­
guage of § 1344(l)] or to obtain moneys and property

App.62a

owned by, or in the custody or control of, a financial
institution by means of false or fraudulent pretenses,
representations or promises [i.e., the language of
§ 1344(2)]. R. 229 at 22 (emphasis added). And the
“Scheme—Definition” instruction defined “scheme to
defraud a financial institution” O’.e., for purposes of
§ 1344(l)) with the requisite element of specific intent:
For purposes of Count Two, ... A scheme to
defraud a financial institution means a plan
or course of action intended to deceive or
cheat that financial institution or to obtain
money or property or to cause the potential
loss of money or property by the financial
institution.
Id. at 32; see Seventh Circuit Pattern Criminal Jury
Instructions (2012), p. 413 (“18 U.S.C. § 1344 SchemeDefinition). The Committee Comment for this instruc­
tion explains that this paragraph “should be given in
a case in which a scheme to defraud a bank [under
§ 1344(l)] is charged.” Id. (committee comment). The
“Scheme—Definition” instruction thus ensured that
if the jury found a “scheme to defraud a financial
institution” as required for § 1344(l), it also had to
find the requisite specific intent. 12
O’Brien notes that, based on Loughrin, the Sev­
enth Circuit has proposed—but not yet adopted—new,
separate bank fraud instructions for §§ 1344(l) and
(2). See Proposed Revisions to Seventh Circuit Criminal
12 O’Brien says the jury could have potentially disregarded
everything prior to the “disjunctive ‘or’” in this instruction and
therefore not found the requisite intent. R. 288 at 34. But the
Court presumes that the jury follows the plain language of jury
instructions. See Sorich, 709 F.3d at 677.

App.63a

Jury Instructions (“18 U.S.C. § 1344(l) Scheme to
Defraud A Financial Institution-Elements”; “18 U.S.C.
§ 1344(l) Scheme to Defraud-Definition”; “18 U.S.C.
§ 1344(2) Obtaining Bank Property By False Or Fraud­
ulent Pretenses-Elements”; “18 U.S.C. § 1344(2)
Scheme to Defraud-Definition”) (available at http://
www.ca7.uscourts.gov/pattern-jury instructions/2016_
proposed_changes_to_CrimCivil_Jury_Instructions.pdf).
But as the Committee Comment explains, these
separate instructions are designed to account for
Lougrids “h[olding] that the Government need not prove
that a defendant charged under 18 U.S.C. § 1344(2)
intended to defraud the bank or financial institution.”
Id. (“18 U.S.C. § 1344(l) Scheme to Defraud A Financial
Institution-Elements,” committee comment) (emphasis
added). It is for this reason that “the Committee has
divided the previous unified instruction for § 1344
into two separate instructions.” Id. In other words,
the Committee has proposed revising the pattern in­
structions to make the government’s lesser burden of
proof under § 1344(2) clear.
The proposed revisions include a “18 U.S.C. § 1344
(l) Scheme to Defraud-Definition” instruction regard­
ing intent that is identical to the instruction the Court
gave, proscribing the requisite specific intent for “a
scheme to defraud a financial institution” under
§ 1344(l). Id. (“18 U.S.C. § 1344(l) Scheme to DefraudDefinition”). Although the proposed pattern instruc­
tions separating out § 1344(l) and § 1344(2) may be
clearer, they in no way support that the current,
pattern instructions the Court gave misstated the
law. If anything, the current instructions might have
prejudiced the government, because the proposed
separate instructions make clear that specific intent

App.64a

is not required under § 1344(2). In any event, the
pattern instructions given did not prejudice O’Brien.
See White, 443 F.3d at 587 (new trial appropriate only
when instructions caused prejudice).
Finally, O’Brien takes issue with the government’s
statement to the jury at closing that the third element
of bank fraud was “I think . . . identical” to the intent
element of mail fraud, Tr. 1195, without clarifying the
different intent levels required under § 1344(l) and
§ 1344(2). The government immediately thereafter
emphasized that it was speaking in general terms.
Tr. 1195 (clarifying that the intent and other elements
of mail fraud “are generally consistent with Count II”).
And the government’s main point in this discussion was
that its “proof [wa]s the same” and “overlap[ping]” on
this and certain other elements of Counts I and II, so
it planned “to discuss them together.” Id. The govern­
ment later clarified that “[t]he defendant acted with
intent to defraud if the defendant acts knowingly and
with intent to deceive or cheat the victim in order to
cause a gain or money or property to the defendant.”
Tr. 1197 (emphasis added). Read in context, the gov­
ernment’s discussion of intent in its closing statement
did not prejudicially mislead the jury.
4. Admission of Quit Claim Deeds
Finally, O’Brien claims the Court erred in admit­
ting into evidence the quit claim deeds transferring
the properties from Kwan to Bartko shortly after the
2007 closings (GX CCRD 1 and 2). O’Brien argues that
the deeds were hearsay, lacked foundation without a
witness’s testimony introducing them, and were
irrelevant because there was no evidence O’Brien
knew about them. The Court disagrees.

App.65a

The deeds were not hearsay or offered without
foundation. Deeds are “[statements in documents
affecting an interest in property” that “fall within an
exception to the hearsay rule.” Doss v. Clearwater
Title Co., 551 F.3d 634, 640 (7th Cir. 2008) (citing Fed.
R. Civ. 803(15)). And the government obtained certified
copies of the deeds from the Cook County Recorder of
Deeds Office, which are self-authenticating. See Fed.
R. Evid. 902 (certified copies of public records are selfauthenticating; a witness is not needed).
And the deeds were relevant regardless of whether
O’Brien knew about them. The indictment alleged,
and the government offered proof at trial, that Bartko
was the true buyer of O’Brien’s properties in 2007, and
Kwan was merely a straw buyer. The quit claim deeds
supported this position by showing that the properties
were deeded over from Kwan to Bartko very soon after
the closings.
Finally, O’Brien says that because the Court
admitted the quit claim deeds, O’Brien should have
been allowed to introduce evidence that Kwan quit­
claimed a property in Skokie to Bartko on another
occasion. O’Brien sought to introduce this evidence to
support an argument that Kwan and Bartko were
involved in their own separate scheme. Unlike the
quit claim deeds that the Court admitted, which
pertained directly to the properties at issue, the quit
claim deed O’Brien sought to introduce involved a
different property not at issue in this case. It was
therefore properly excluded as irrelevant.
Conclusion
For the foregoing reasons, the Court denies
O’Brien’s post-trial motions for a judgment of acquittal

App.66a
or, alternatively, for a new trial [277]. For the same
reasons it denies her post-trial motion for a judgment
for acquittal, the Court also denies O’Brien’s motion
for judgment of acquittal filed at the close of the gov­
ernment’s case [225], as well as O’Brien’s oral motions
for a directed verdict at the close of the evidence and
following the jury charge, which the Court took under
advisement CseeR. 230).
ENTERED:
/s/ Thomas M. Durkin
United States District Judge
Dated: September 4, 2018

App.67a
DECISION OF THE UNITED STATES
DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
(FEBRUARY 15, 2018)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA
v.
JESSICA ARONG O’BRIEN
No. 17 CR 239-1
Before: Thomas M. DURKIN, Judge.
With respect to the charges set forth in the indict­
ment, we the jury, find the defendant, JESSICA
ARONG O’BRIEN:
Count One:

IS Guilty

Count Two:

IS Guilty
Signatures not legible
Foreperson

Dated: 2/15/2018

App.68a
MEMORANDUM OPINION & ORDER OF
THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
ON STATUTE OF LIMITATION
(JANUARY 29, 2018)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
JESSICA ARONG O’BRIEN,
Defendant.
No. 17 CR 239-1
Before: Honorable Thomas M. DURKIN,
United States District Judge.
Defendants Jessica Arong O’Brien and Maria
Bartko are charged with engaging in a scheme to
defraud that involved causing lenders to issue and
refinance loans related to two investment properties
that O’Brien owned on the south side of Chicago. The
indictment charges O’Brien and Bartko with mail
fraud in violation of 18 U.S.C. § 1341 in Count I, and
it charges O’Brien with bank fraud in violation of 18
U.S.C. § 1344 in Count II. The indictment alleges that

App.69a

defendants’ scheme was comprised of a series of trans­
actions in 2004, 2005, 2006, and 2007. R. 1 at 4-7. Of
particular relevance here, the indictment alleges that
in 2007, Citibank, N.A. (“Citibank”) funded a loanl
in the amount of $73,000 for one of the investment
properties sold by O’Brien to Bartko using a straw
buyer. R. 1 at 10.
Before the Court are two motions: (l) O’Brien’s
motion to dismiss the indictment based on the statute
of limitations and failure to state an offense (R. 139);
and (2) O’Brien’s motion to dismiss based on pre­
indictment delay (R. 141). For the reasons explained
below, the Court denies both motions.
I.

Statute of Limitations and Failure to State an
Offense
A. Standard

Federal Rule of Criminal Procedure 12(b)(3)(B)
allows a party to raise by pretrial motion “a defect in
the indictment or information, including . . . failure to
state an offense.” Rule 12(b)(1) more generally allows
a party to “raise by pretrial motion any defense,
objection, or request that the court can determine
without a trial on the merits,” including an argument
based on the “statute of limitations.” Fed. R. Crim. P.
12(b)(1) & (b)(l)-(2) advisory committee note.

1 The indictment refers to this as a “mortgage loan” (R. 1 at 10),
but a Citibank representative in her testimony (R. 113 at 78-79,
85, 105) and the parties in some of their filings (R. 148 at 2, 14;
R. 161 at 6) refer to it as a “home equity loan.” This distinction is
not relevant for purposes of this opinion, but the parties should
clarify the type of loan at issue at trial.

App.70a

Pursuant to Federal Rule of Criminal Procedure
7(c)(l), an “indictment or information must be a plain,
concise, and definite written statement of the
essential facts constituting the offense charged.” The
indictment need not “allege in detail the factual proof
that will be relied on to support the charges.” United
States v. Smith, 230 F.3d 300, 306 (7th Cir. 2000). “An
indictment is legally sufficient if it (l) states all the
elements of the crime charged; (2) adequately informs
the defendant of the nature of the charges so that [s]he
may prepare a defense; and (3) allows the defendant
to plead the judgment as a bar to any future prosecu­
tions.” United States v. White, 610 F.3d 956, 958 (7th
Cir. 2010).
On a motion to dismiss, “[a]n indictment is reviewed
on its face, regardless of the strength or weakness of
the government’s case.” Id. This Court “assumes all
facts in the indictment are true and must ‘view all
facts in the light most favorable to the government.’”
United States v. Segal, 299 F. Supp. 2d 840, 844 (N.D.
Ill. 2004) (quoting United States v. Yashar, 166 F.3d
873, 880 (7th Cir. 1999)).
B. Application

J

O’Brien moves to dismiss Count I of the indictment
based on the statute of limitations and Count II for
failure to state an offense. “To secure an indictment
for mail. . . fraud” as alleged in Count I, “the govern­
ment was required to show probable cause to believe
that [O’Brien]: (i) participated in a scheme to defraud;
(ii) acted with intent to defraud; and (iii) used the
mail... in furtherance of the fraudulent scheme.”
United States v. Vincent, 416 F.3d 593, 601 (7th Cir.
2005). Mail fraud generally is governed by the default

App.71a

five-year limitations period for non-capital federal
crimes set forth in 18 U.S.C. § 3282(a). But a ten-year
statute of limitations applies to mail fraud that
“affects a financial institution.” 18 U.S.C. § 3293(2).
The government relied on the ten-year statute of lim­
itations in 18 U.S.C. § 3293(2) to indict O’Brien when
it did.
A ten-year statute of limitations undisputedly
applies to the bank fraud charge in Count II. See 18
U.S.C. § 3293(l). But like the statute providing a tenyear limitations period for mail fraud, the statute
criminalizing bank fraud contains a “financial institu­
tion” requirement. To obtain an indictment for bank
fraud, the government needed to establish probable
cause to believe that O’Brien “knowingly execute [d],
or attempted] to execute, a scheme . .. (l) to defraud a
financial institution; or (2) to obtain any of the moneys,
funds, credits, assets, securities, or other property owned
by, or under the custody or control of, a financial
institution, by means of false or fraudulent pretenses,
representations, or promises.” 18 U.S.C. § 1344.
O’Brien’s arguments for dismissal focus on the
“financial institution” requirement in the ten-year
statute of limitations for mail fraud (18 U.S.C. § 3293
(2)) and the statute setting forth the elements of bank
fraud (18 U.S.C. § 1344). “Financial institution” is
defined to include “an insured depository institution
(as defined in section 3(c)(2) of the Federal Deposit
Insurance Act [‘FDIA’]).” 18 U.S.C. § 20. Section 3(c)(2)
of the FDIA in turn provides that “[t]he term ‘insured
depository institution’ means any bank or savings
association the deposits of which are insured by the
Corporation pursuant to this chapter.” 12 U.S.C. § 1813
(c)(2).

App.72a

Although the indictment describes a number of
transactions comprising the alleged scheme, it only
alleges that one of them (a) involved a financial
institution (Citibank) and (b) occurred within the tenyear statute of limitations: the $73,000 loan the straw
buyer obtained for the purchase of one of O’Brien’s two
investment properties in 2007. See R. 1. Because this
is the only loan that potentially brings this case
within the ten-year statute of limitations, it is the
focus of O’Brien’s motion.
O’Brien claims that, in fact, CitiMortgage funded
the $73,000 loan—not Citibank. And CitiMortgage
undisputedly did not qualify as a “financial institution”
in 2007. See, e.g., United States v. Bouchard, 828 F.3d
116,124 (2d Cir. 2016) (prior to the Fraud Enforcement
and Recovery Act of 2009, “financial institution[s]” did
not include mortgage lenders, and the pre-2009 defi­
nition applies to conduct that occurred before 2009).
O’Brien therefore maintains that the default five-year
statute of limitations applies to the mail fraud charge
in Count I, and that statute expired well before the
government indicted this case. O’Brien further main­
tains that Count II fails to state an offense because
the $73,000 loan alleged to be the subject of bank
fraud was not funded by a financial institution.
For several reasons set forth below, this Court
declines to dismiss the indictment on these bases.
1. Face of the Indictment
As explained above, the Court’s review at this
stage is limited. It must “assume 0 all facts in the
indictment are true,” Segal, 299 F. Supp. 2d at 844,
and review the indictment on its face, White, 610 F.3d
at 958.

App.73a

The indictment on its face alleges that the “scheme
affected a financial institution”—namely, Citibank. R.
1 at 2-3. For purposes of Count I, the indictment spe­
cifically alleges that O’Brien and Bartko knew “that
false information would be submitted to lenders,
including Citibank, N.A., to qualify [the straw buyer]
for the [2007] loans.” Id. at 7. For purposes of Count
II, the indictment specifically alleges that O’Brien
“knowingly executed and attempted to execute the
scheme to defraud by causing Citibank, N.A., a
financial institution, to fund a mortgage loan in the
amount of approximately $73,000” for one of the two
investment properties sold in 2007. Id. at 10; see also
R. 139 at 1 (O’Brien acknowledges that “[t]he Indictment
alleges that Citibank . . . was the lender on the $73,000
loan”). The indictment also states that “Citibank N.A.”
was during the relevant time period a “financial insti­
tution D, the deposits of which were insured by the
Federal Deposit Insurance Corporation.” R. 1 at 2.
In other words, the indictment on its face plainly
alleges that the mail fraud scheme described in Count
I affected Citibank, a financial institution as defined
by 18 U.S.C. § 20 and 12 U.S.C. § 1813(c)(2). Count I
therefore alleges an offense affecting a financial
institution governed by the ten-year statute of limita­
tions. And the indictment on its face plainly alleges
that Citibank funded the $73,000 loan described in
Count II. Count II thus states the offense of defraud­
ing a financial institution. Accordingly, the indictment
is not legally insufficient.
2. Outside Evidence
O’Brien urges the Court to consider evidence out­
side the four corners of the indictment to decide her

App.74a
motion. See Ex. 139 (exhibits). O’Brien cites a Tenth
Circuit case, United States v. Hall, 20 F.3d 1084, 1088
(10th Cir. 1994), for the proposition that courts may
consider facts outside the indictment on a motion to
dismiss. But the Hall court made clear that as a general
matter, “[c]ourts should refrain from considering evi­
dence outside the indictment when testing its legal
sufficiency.” 20 F.3d at 1087. It explained that only
under “certain limited circumstances” could a district
court “go beyond the allegations of the indictment and
make predicate findings of fact.” Id. at 1088. These cir­
cumstances are: “[l] where the operative facts are
undisputed and [2] the government fails to object to
the district court’s consideration of those undisputed
facts in making the determination regarding a submissible case.” Id. “Under this scenario,” the Hall
court explained, “a pretrial dismissal is essentially a
determination that, as a matter of law, the government
is incapable of proving its case beyond a reasonable
doubt.” Id. (emphasis in original). The court emphasized
“that such a scenario is not likely to recur,” and it
“caution [ed] both the trial courts and counsel that the
procedure [t]here employed [wa]s indeed the rare
exception.” Id.
This case is not “the rare exception” described in
Hall. Id. The facts are not “undisputed” (id.)—rather,
the government heavily contests the facts stated by
O’Brien. Nor has “the government fail [ed] to object to
the district court’s consideration of [outside] facts”
(id.)—rather, the government strenuously objects to
this Court’s consideration of outside facts.
In any event, even if this Court were to consider
facts beyond the face of the indictment, it would not
change the Court’s conclusion. O’Brien says the outside

App.75a
evidence conclusively reveals that CitiMortgage, not
Citibank, funded the $73,000 loan. In fact, there is
significant evidence supporting the government’s posi­
tion that Citibank was the lender on the $73,000 loan.
The note, the mortgage, the HUD-1 settlement state­
ment, the truth in lending disclosure, the affiliated busi­
ness arrangement disclosure, and the evidence of
homeowner’s insurance all identify
Citibank as the lender. R. 148-1,148-2,148-3,1484, 148-5, 148-6. Moreover, at an evidentiary hearing
before this Court on October 11, 2017, Judy Taylor, a
Citibank vice president, testified: (l) that the “$73,000”
were “Citibank funds,” R. 113 at 78; (2) that “the
[$73,000] home equity loan was a Citibank product,”
as the note and other documents demonstrated, id. at
105; and (3) that the loan was funded using “all Citi
money,” id. at 79. Taylor explained that although the
wire transmitting the funds indicated that the funds
came from a CitiMortgage account, that money would
have been “requested from the Citibank cash account
and transferred over to the [CitiMortgage] wholesale
lending account,” which “was zeroed out at the end of
the day.” Id. at 62-63, 77-79.
O’Brien points to other documents that she
claims establish that CitiMortgage, and not Citibank,
funded the $73,000 loan. These include a number of
documents prior to closing identifying CitiMortgage or
CitiMortgage and affiliates as the originator or lender
(R. 139-3, 139-7, 139-9); documents from the day of
closing identifying CitiMortgage as the lender and
indicating that funds for the loan were drawn from a
CitiMortgage account (R. 139-13, 139-14, 139-15, 13916, 139-17, 139-18, 139-31, 139-32, 139-33); mortgage
account statements from CitiMortgage and checks

App.76a
made out to CitiMortgage for the loan (R. 139-19,13920, 139-21); IRS tax records and credit reports for the
alleged straw buyer identifying CitiMortgage as the
lender (R. 139-27, 139-28, 139-29); and a letter from a
CitiMortgage representative in response to a govern­
ment subpoena stating that CitiMortgage took a loss
of $73,000 on the loan (R. 139-23).
O’Brien acknowledges, however, that the note and
the mortgage executed at closing identified Citibank
as the lender for the $73,000 loan. R. 139 at 7. She
concedes that “[s]ome of the underwriting approval
paperwork did . . . reflect that Citibank would be the
lender on the $73,000.” R. 139 at 5. In light of this evi­
dence and the other documents and testimony cited by
the government, the issue of which entity funded the
$73,000 loan is far from one that can be decided as a
matter of law. Indeed, whereas O’Brien’s motion
claims to have affirmative proof that “in fact Citi­
Mortgage did fund the $73,000 loan” (R. 139 at 20
(emphasis in original)), her supplemental and reply
briefs implicitly acknowledge that the issue is not so
clear cut by focusing on the lack of definitive proof as
to which entity funded the loan. See R. 145 at 2 (sup­
plemental brief discussing lack of “unequivocal 0”
proof and “dispositive documentary evidence”); R. 161
at 6, 9 (reply brief discussing lack of “direct evidence”
and “dispositive evidence”).
O’Brien argues in her supplemental brief that
pursuant to Citigroup’s ten-year retention policy for
certain records (R. 145-2, 145-3), documents may have
been destroyed that would conclusively “evidencte]
Citibank funding [the] $73,000 loan” or show “that
CitiMortgage . . . funded the loan.” R. 145 at 2.
O’Brien criticizes the government for failing to “issue D

App.77a

a simple litigation/legal/regulatory hold” during its inve­
stigation to prevent the destruction of this evidence.
R. 145 at 2.
O’Brien points to no criminal case dismissing an
indictment or otherwise sanctioning the government
(as O’Brien suggests, R. 145 at 8) based on failure to
ensure that a litigation hold is put into place.2 And, as
O’Brien acknowledges, there is “nothing unlawful or
improper” about a records retention policy. R. 141 at
12 (citing Arthur Andersen LLP v. United States, 544
U.S. 696, 704 (2005)). The fact that that certain docu­
ments may no longer exist due to the routine and law­
ful records retention policy of one of the alleged
victims in this case does not mean that all other evi­
dence should be ignored and O’Brien is entitled to
judgment as “as a matter oflaw” Hall, 20 F.3d at 1088
(emphasis in original).3

2 Litigation holds typically refer to an internal order an organi­
zation puts in place to “hold” and not destroy certain documents
that otherwise would be destroyed pursuant to a routine docu­
ment destruction policy. The government typically does not put
a “litigation hold” in place—rather, the holder of the documents puts
such a hold in place. The government’s method of preventing doc­
ument destruction is to issue a grand jury subpoena, which
obligates the subpoenaed organization to take steps to retain and
ultimately produce the subpoenaed documents. Here, as further
discussed below, the government issued a grand jury subpoena
seeking relevant documents from the Citi entities very early in
its investigation.
3 O’Brien’s claims of prejudice resulting from missing documents
are best addressed in the context of her motion to dismiss based
on pre-indictment delay, which the Court addresses below.

App.78a

Rather, as this Court explained at the October 11,
2017 evidentiary hearing, any missing documentation
is

a matter of proof that the government is
going to have to overcome at trial. They may
have to call [Taylor] as a witness at trial. But
they have established a good-faith basis to at
least at this stage establish that the money
comes from a financial institution. ... If
you want to impeach... with the absence of
records, that’s a matter for trial proof.
R. 113 at 80. Indeed, weighing competing documentary
evidence and determining the appropriate weight to
give to Taylor’s testimony (as well as any other
Citibank representatives’ testimony) are quintessential
tasks for the jury.
In sum, even if the Court were to consider facts
beyond the face of the indictment—which governing
law says it cannot do in these circumstances—it still
would find that O’Brien’s motion presents jury issues
that cannot be decided on a motion to dismiss.
3. Risk of Loss to Parent Company Sufficient
for Count I
There is an additional reason why O’Brien’s
motion does not provide grounds for dismissal of Count
I. Several courts of appeals have interpreted 18 U.S.C.
§ 3293(2)’s ten-year statute of limitations for wire or
mail fraud “affect [ing] a financial institution” to
encompass situations where a financial institution’s
subsidiary funded a loan. See, e.g., United States v.
Mullins, 613 F.3d 1273, 1278-80 (10th Cir. 2010);
United States v. Bouyea, 152 F.3d 192, 195 (2d Cir.

App.79a

1998); United States v. Pelullo, 964 F.2d 193, 214-16
(3d Cir. 1992). Under this interpretation, even if O’Brien
is correct that CitiMortgage (Citibank’s subsidiary)
funded the $73,000 loan, the ten-year statute of limi­
tations still would apply, and Count I would not be
time-barred.
O’Brien maintains that the Seventh Circuit’s
decades-old decision in United States v. White, 882
F.2d 250 (7th Cir. 1989), indicates that the Seventh
Circuit would take a different position than these
other courts of appeals. This Court disagrees. White did
not address the proper interpretation of the “affects a
financial institution” language in 18 U.S.C. § 3293(2).
Rather, it involved a challenge to a conviction under
18 U.S.C. § 1014, which prohibits “‘knowingly’” making
false statements “‘for the purpose of influencing’”
an FDIC-insured institution. White, 882 F.2d at 250
(quoting 18 U.S.C. § 1014). The Seventh Circuit in
White held that 18 U.S.C. § 1014 did not extend to
statements made to a wholly owned bank subsidiary,
explaining that it could not assume “that Congress
wanted to extend the statute’s protection to [the bank’s]
affiliates, when so far as appears there is no (or only
the most attenuated) federal stake in preventing
fraud against affiliates of a federally insured bank.”
Id. at 253.
The Seventh Circuit has since distinguished White
as a case where the indictment did not charge the
defendant with an element of the crime—intent to
influence a financial institution. See United States v.
Bianucci, 416 F.3d 651, 656 (7th Cir. 2005). Rather,
the indictment in White charged the defendant only with
intent to influence a financial institution’s subsidiary.
Id. In Bianucci, on the other hand, the indictment

App.80a
charged the defendant “with making false statements
[in documents submitted to a subsidiary] for the pur­
pose of influencing the [financial institution] to advance
funds to [the subsidiary].” Id. at 657. And “there [wa]s
sufficient evidence to show that [the defendant] knew
the bank was identified as the lender, and that, al­
though [the subsidiary] may have been servicing the
loan, the bank was advancing the money.” Id. Unlike
in White, the government in Bianucci “did not stake
its case on proving that [the subsidiary] was an FDICinsured entity.” Id.
Like in Bianucci and unlike in White, the indict­
ment in this case alleges all of the required elements
of mail fraud affecting a financial institution—including
facts that would support that the mail fraud affected
Citibank, which the indictment alleges owned Citibank
Domestic Investment Corp., which in turn owned CitiMortgage. R. 1 at 2. The government has not “stake[d]
its case on proving that [CitiMortgage] was an FDICinsured entity.” See Bianucci, 416 F.3d at 647.
Moreover, knowingly making statements for the
purpose of influencing a financial institution under 18
U.S.C. § 1014 is a substantively different requirement
than affecting a financial institution under 18 U.S.C.
§ 3293(2). Cf. Pelullo, 964 F.2d at 216 (emphasizing
that 18 U.S.C. § 3293(2) does not “provid[e] for an extend­
ed limitations period where the financial institution is
the object of fraud”; rather, through the word “affected,”
“Congress chose to extend the statute of limitations to a
broader class of crimes”). And more recent Seventh
Circuit decisions than White indicate that it would
follow its sister circuits in the context of interpreting
18 U.S.C. § 3293(2). For example, the Seventh Circuit
in United States v. Serpico, 320 F.3d 691 (7th Cir. 2003),

App.81a

determined that a district court properly instructed
the jury that an offense affects a financial institution
for purposes of 18 U.S.C. § 3293(2) if it “expose[s] the
financial institution [s] to a new or increased risk of
loss. A financial institution need not have actually
suffered a loss in order to have been affected by the
scheme.” Id. at 694. The court explained that “protec­
tion for financial institutions is much more effective if
there’s a cost to putting those institutions at risk,
whether or not there is actual harm.” Id. at 694-95.
Relying on Serpico, the Seventh Circuit in United
States v. Marr, 760 F.3d 733 (7th Cir. 2014), rejected
a challenge to a jury instruction stating that “[a]
scheme ‘affected’ a financial institution if it exposed
the financial institution to a new or increased risk of
loss.” Id. at 743-44.
The Tenth Circuit in Mullins applied the same
definition of “affected” adopted by the Seventh Circuit
in Serpico and Marr to conclude that the ten-year
statute of limitations applies even when a mortgage
company subsidiary issued a loan, as long as the jury
finds that the loan exposed the parent financial
institution to a greater risk of loss. 613 F.3d at 127880. The Mullins court first determined that “a ‘new
or increased risk of loss’ is plainly a material, detrimen­
tal effect on a financial institution, arid falls squarely
within the proper scope of [18 U.S.C. § 3293(2)].” Id. at
1278-79. Applying that interpretation, the court found
that the jury reasonably could have concluded that “the
loans [the subsidiaries] issued based on false informa­
tion [defendant] helped supply exposed the companies
to a greater risk of loss,” and “that this risk of loss
passed through to their parent financial institutions.”
Id. at 1280; accordPelullo, 964 F.2d at 215 (“assuming]

App.82a
that a fraud perpetrated against a financial institution’s
wholly owned subsidiary cannot affect the parent” is
“a clearly untenable assumption”). This Court sees
no reason to believe that the Seventh Circuit would
conclude differently in light of its identical interpret­
ation of “affected” for purposes of 18 U.S.C. § 3293(2).
Thus, even if the jury agrees with O’Brien that
CitiMortgage funded the $73,000 loan, that would not
end the jury’s inquiry as to Count I. The jury still
could find, as the jury did in Mullins, that “the ten
year statute of limitations applies” to Count I, 613
F.3d at 1280, because the false information O’Brien
helped supply “exposed [CitiMortgage’s parent Citi­
bank] to a new or increased risk of loss.” See Serpico,
320 F.3d at 694. Such a finding could be supported by
Taylor’s testimony that “if, in fact, there was a loss”
from the $73,000 loan, “Citibank” “would take that
loss.” R. 113 at 82; see also, e.g., Bouyea, 152 F.3d at 195
(testimony by subsidiary’s representative that parent
financial institution “was affected by th[e] loss” “was
sufficient to support the finding that a financial
institution was affected by the wire fraud”); Mullins,
613 F.3d at 1280 (based on “the mechanisms the com­
panies’ officers described,” the jury reasonably found
that the “risk of loss passed through to theD parent
financial institutions, which would bear any loss the
mortgage companies incurred”). This is another reason
why the Court declines to dismiss Count I based on
the statute of limitations.

App.83a

II.

Pre-Indictment Delay
A. Standard

Under Federal Rule of Criminal Procedure 48(b)(1),
a district court may dismiss an indictment “if unneces­
sary delay occurs in . . . presenting a charge to a grand
jury. A defendant’s primary safeguard against unreasonable prosecutorial delay is derived from the
applicable statute of limitations.” United States v.
McMutuary, 217 F.3d 477, 481 (7th Cir. 2000). The
“Fifth Amendment’s due process clause plays a limited,”
additional “role in assuring that the government does
not subject a defendant to oppressive delay.” United
States v. Spears, 159 F.3d 1081, 1084 (7th Cir. 1998).
To establish a due process violation based on pre­
indictment delay, a defendant “must demonstrate that
the delay caused actual and substantial prejudice to
his right to a fair trial.” McMutuary, 217 F.3d at 482.
“A defendant’s burden to show actual and substantial
prejudice is an exacting one; the showing must rest
upon more than mere speculative harm.” Id. “The
defendant’s allegations . . . must be ‘specific, concrete,
and supported by evidence.’” Id. (quoting United States
v. Sowa, 34 F.3d 447, 450 (7th Cir. 1994)). The Seventh
Circuit has described this as a “monumental hurdle.”
Sowa, 34 F.3d at 451.
If the defendant succeeds in demonstrating actual
and substantial prejudice, “the burden shifts to the
government to ‘show that the purpose of the delay was
not to gain a tactical advantage over the defendant or
for some other impermissible reason.’” McMutuary,
217 F.3d at 482 (quoting Spears, 159 F.3d at 1084-85).
The government’s “reasons are then balanced against
the defendant’s prejudice to determine whether the

App.84a
defendant has been denied due process.” Sowa, 34
F.3d at 451. To constitute a due process violation, the
“actual prejudice to the defendant. . . must be so
substantial as to outweigh the preferable deference
to legitimate prosecutorial priorities and bureaucratic
realities.” United States v. Williams, 738 F.2d 172,
175 n.2 (7th Cir. 1984).
B. Application
1. Actual and Substantial Prejudice
O’Brien’s argument for actual and substantial
prejudice is founded on the potentially relevant docu­
ments no longer available in light of Citigroup’s tenyear records retention policy. O’Brien explains that
the government’s investigation in this case began at
some point in 2015, at least a year and a half before
Citigroup’s records retention policy (or, more accu­
rately, document destruction policy) kicked in for certain
documents from April 2007 that may have been related
to the $73,000 loan. O’Brien acknowledges that “one
of the first things [the government] did” in its investi­
gation was to issue a grand jury subpoena to CitiMortgage “request[ing] information regarding the
loss” on the $73,000 loan. R. 166 at 7. Through that
subpoena, “the Government [also] asked for docu­
ments tracking the elements required to prove a mail
or wire fraud case.” Id. As explained above, a grand
jury subpoena of this nature is the government’s
primary method of preventing document destruction.
O’Brien nevertheless claims the government did
not do enough to ensure the preservation of relevant
records by the Citi entities in this case. O’Brien
emphasizes that in response to the grand jury subpoena,

App.85a
a CitiMortgage representative sent a letter to the gov­
ernment in September 2015 explaining that it was
producing non-privileged, responsive documents, and
stating that “[t]he loanO . . . resulted] in a loss to
CitiMortgage of. . . $73,000.” R. 141-8. At that point,
O’Brien maintains, the government was on notice that
CitiMortgage may have been the lender on the $73,000
loan. O’Brien says the government should have realized
that CitiMortgage was not a financial institution and
taken additional steps beyond the grand jury subpoena
to ensure that no records potentially relevant to that
issue would be destroyed.
O’Brien points out that if the government had
indicted the case several months sooner than it did
(in mid-April 2017), O’Brien could have sought any
relevant documents from April 2007 before Citigroup’s
retention policy came into play. Because she claims
these records could conclusively establish that Citi­
Mortgage—not Citibank—funded the $73,000 loan,
which would support the arguments addressed in
Section I of this opinion, O’Brien says that the delay
caused actual and substantial prejudice.
Although the Court agrees with O’Brien that the
timing of the expiration of Citigroup’s ten-year records
retention policy vis-a-vis the indictment is unfortunate,
the Court finds that O’Brien has not satisfied the
“monumental hurdle of proving prejudice” based on
pre-indictment delay. Sowa, 34 F.3d at 451. Again, “[a]
defendant’s burden to show actual and substantial pre­
judice is an exacting one,” requiring O’Brien to be
“concrete” and “specific.” McMutuary, 217 F.3d at 482.
“[A] pre-indictment delay which causes evidence to be
unavailable will not alone amount to actual preju­
dice.” Spears, 159 F.3d at 1085. To satisfy her burden

App.86a
based on records “destroyed]” “in the regular course
of. . . business,” O’Brien must show “whose records
would have been subpoenaed, what those records are
likely to have shown, and how the records would have
been helpful to the defense.” United States v. Canoy,
38 F.3d 893, 902-03 (7th Cir. 1994).
O’Brien has not identified particular documents
likely destroyed pursuant to Citigroup’s records reten­
tion policy that are likely to have shown CitiMortgage
to be the lender on the $73,000 loan and thus to help
her defense. The specific documents
O’Brien complains are missing—and that appear
to fall under the terms of the ten-year records retention
policy {see R. 145-2)—are the “cash transaction reports,
as well as due to and due from reconciliation of funds
transfer documents” that were “testified to by Ms.
TaylorR. 145 at 4 (emphasis added). In other words,
what O’Brien claims to be missing are reconciliation
documents supporting Taylor’s testimony that although
the wire transfer documents show that the funds for
the $73,000 loan came from a CitiMortgage account,
that money in fact would have been “requested from
the Citibank cash account and transferred over to the
[CitiMortgage] wholesale lending account,” which “was
zeroed out at the end of the day.” R. 113 at 62-63;
see also R. 166 at 5 (in describing the “specific and
concrete documents that. . . should have existed in
2015 when the Government began its investigation”
in her reply brief, O’Brien states that “[t]hese docu­
ments—evidence of Citibank’s alleged funding of the
$73,000 loan—no longer exist”) (emphasis added). Again,
to meet her burden, O’Brien had to show “how the
records [missing] would have been helpful to the
defense.” See Canoy, 38 F.3d at 902-03 (emphasis added)

App.87a
(explaining that defendant needed to show how missing
“records would have implicated another individual”).
O’Brien’s more general, optimistic assertions that
missing documents could prove once and for all that
CitiMortgage was the lender on the $73,000 loan are
“speculative” rather than “concrete” and “specific.”
McMutuary, 217 F.3d at 482.4 Although it is possible
that missing documents would provide impeachment
of Taylor, that possibility is unlikely in light of
Taylor’s clear, detailed testimony and key docu­
mentary evidence—including the note and the
4 Importantly, the ten-year records retention policy did not result
in the destruction of wire transfer and accounting records for the
$73,000 loan. Although the Citi entities originally believed that
“they no longer ha[d] copies of the wire transfers related to the
April 16, 2007 closing because such records ha[d] aged out of [the]
ten-year document retention policy,” R. 141-13, a further search
revealed that this was not the case. As counsel for CitiMortgage
and Citibank explained to O’Brien’s counsel in a December 13,
2017 letter:
Yesterday, the Citi Entities confirmed that, although
the wire transfer records were marked for destruction
pursuant to the document retention policy, the hard
copy records had not yet been destroyed and were
being held at an off-site facility. Copies of those docu­
ments are being produced herewith. ... In addition,
the Citi Entities have confirmed that accounting
records related to the transactions on April 16, 2007
were produced by the Citi Entities along with the
origination files and other documents. . . . The Citi
Entities will identify a witness who can testify . . .
regarding the matters set forth in this letter.
R. 139-34. Thus, the delay has not deprived O’Brien of wire transfer
records and other accounting records for the $73,000 loan. It also
has not deprived O’Brien of testimony from the Citi entities’
representatives related to those records.

App.88a

mortgage—corroborating that testimony and identifying
Citibank as the lender for the $73,000 loan. In light of
this evidence and testimony, it seems “likely” that any
missing documents would support the government’s case
rather than O’Brien’s. See Canoy; 38 F.3d at 902.
More broadly, as detailed above, there is substan­
tial documentary and testimonial evidence regarding
who funded the $73,000 loan for the jury to weigh at
trial. This is not a case in which delay has resulted in
a gaping dearth of evidence relevant to a key issue.
For these reasons, the Court finds that O’Brien has
not met the “exacting” standard of providing “concrete
evidence showing material harm” to her case as a
result of pre-indictment delay. Id. (quotation marks
omitted).
2. Government’s Explanation
Even if O’Brien had satisfied her burden, the
Court would reach the same conclusion under the
second prong of the due process inquiry based on the
facts as they currently stand. Like in McMutuary, the
Court finds that the government has “offered a
credible explanation for the delayed filing of the
indictment” that is not “outweighed by the prejudice
claimed by” O’Brien. 217 F. 3d at 482. The government
explains that it initiated a grand jury investigation on
or about the day after investigating agencies opened
the mortgage fraud investigation underlying this
case. The government represents that it then engaged
in an efficient, ongoing grand jury investigation between
August 2015 and the indictment in April 2017, which
is (according to the government) a typical duration for
a case of this nature. The government notes that during
this time, it “met with defendant’s counsel, provided

App.89a
defendant’s counsel with a ‘reverse proffer,’ and gave
defendant’s counsel key documents as pre-charging
discovery.” R. 154 at 6 n.3; see, e.g., Canoy, 38 F.3d at
903 (crediting government explanation “that the delay
resulted from its investigatory process, grand jury
proceedings, an exchange between the parties of
discovery materials, and then by lengthy pre-indictment
plea negotiations”).
This is a far cry from the situation in United States
v. Sabath, 990 F. Supp. 1007 (N.D. Ill. 1998), on which
O’Brien relies. In Sabath, there was a “four-year-andtwo-month delay” prior to the return of the indictment
during which the government failed to “demonstrate
any legitimate investigative activity,” and that delay
created “severe, actual prejudice” to the defendant in
the form of three witnesses dying whose “testimony
could well have been outcome-determinative.” Id.
at 1014-16; see also id. at 1008 (describing Sabath
as a “highly unusual criminal case” in which “the
government recklessly delayed in bringing highly
circumstantial arson and related mail fraud charges
against Defendant until... 1997—even though by the
government’s own admission the investigation was
completed over four years earlier”). Here, unlike in
Sabath, the government did not wait for years after
completing its investigation to indict.
Nor has there been any showing that the investi­
gatory “explanation offered by the government was
pretextual.” McMutuary, 217 F.3d at 482. To the con­
trary, the government’s good faith is shown by the fact
that, on the first day of its investigation, it issued a
grand jury subpoena to CitiMortgage seeking “docu­
mentation of any loss realized (and the calculations of
those losses) by CitiMortgage or Citibank on the [2007]

App.90a

mortgage loans as a result of foreclosure or short sale”
and “documentation of the writing of loan proceeds.”
R. 154 at 12. O’Brien acknowledges that “one of the
first things [the government] did was to request infor­
mation regarding the loss,” and that through its su­
bpoena to CitiMortgage, “the Government asked for doc­
uments tracking the elements required to prove a mail
or wire fraud case.” R. 166 at 7. Given that the gov­
ernment sought key documents from CitiMortgage on
the first day of its investigation, it is difficult to see
how the government could have been trying to take
advantage of the ten-year records retention policy or
gain other tactical advantages through delay.
There is another important piece of the equation
that the parties fail to address. The primary reason
the government indicted this case just before the ex­
piration of the ten-year statute of limitations and the
expiration of the ten-year records retention policy was
the significant delay between when the events in the
indictment took place and when the government
learned about them. That delay cannot be attributed
to the government. See, e.g., Aleman v. Honorable
Judges of Circuit Court of Cook County, 138 F.3d 302,
310 (7th Cir. 1998) (in the context of addressing a pre­
indictment delay argument in a habeas petition, finding
the “position of criticizing the State for not discovering”
the crime “sooner” to be “odd and untenable”). This is
not a case where the defendant was “arrested . . . but
[wa]s not charged” until significantly later. See United
States v. Hunter, 197 F.3d 862, 866 (7th Cir. 1999).
Nor, as explained above, is it a case of unnecessary
delay after “the government possessed all of the infor­
mation necessary to support an indictment.” See

App.91a

United States v. Miner, 127 F.3d 610, 615 (7th Cir.
1997); see also Sabath, 990 F. Supp. at 1008.
With respect to the only delay that can be
attributed to the government—the time between when
the government began investigating and when it
indicted O’Brien—as in McMutuary, the Court has no
reason to believe that “[t]he cause of th[at] delay” was
anything other than “investigatory in nature.” 217
F.3d at 483. In such cases, there is no due process vio­
lation. Id.-, accord Sowa, 34 F.3d at 451 (“if the cause
of the delay is legitimately investigative in nature, a
court will not find a due process violation”).
Conclusion
For the reasons explained above, the Court
denies: (l) O’Brien’s motion to dismiss based on the
statute of limitations and failure to state an offense
(R. 139); and (2) O’Brien’s motion to dismiss based on
pre-indictment delay (R. 141).5
ENTERED:
/s/ Hon. Thomas M. Durkin
United States District Judge
Dated: January 29, 2018

5 The Court notes that O’Brien can always re-raise her pre­
indictment delay argument in the event that “[e] vents of the
trial. . . demonstrate actual prejudice.” See United States v.
Marion, 404 U.S. 307, 326 (1971). And O’Brien is of course free
to make her arguments based on the “financial institution”
requirement in the ten-year statute of limitations for mail fraud
(18 U.S.C. § 3293(2)) and the bank fraud statute (18 U.S.C.
§ 1344)to the jury.

App.92a
MEMORANDUM OPINION & ORDER
OF THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS ON DUPLICITY
(NOVEMBER 9, 2017)
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
JESSICA ARONG O’BRIEN and MARIA BARTKO,
Defendants.
No. 17 CR 239-1
Before: Honorable Thomas M. DURKIN,
United States District Judge.
Defendants Jessica Arong O’Brien and Maria
Bartko are charged with engaging in a scheme to
defraud lenders and obtain money and property from
lenders through materially false pretenses and repre­
sentations. The indictment alleges in Count I that
defendants committed mail fraud in violation of 18
U.S.C. § 1341, and in Count II that defendants com­
mitted bank fraud in violation of 18 U.S.C. § 1344. The
indictment also contains a forfeiture allegation.

App.93a
Before the Court is defendant O’Brien’s motion to
dismiss Counts I and II of the indictment on duplicity
grounds (R. 45). O’Brien argues that in both Counts I
and II, the government has improperly joined four
separate offenses into a single scheme to avoid the
statute of limitations that would otherwise apply to
bar the first three offenses. O’Brien claims the
indictment is therefore duplicitous and prejudicial to
her in a number of ways. Because this Court finds that
the indictment fairly alleges a scheme and that
potential prejudices can be effectively mitigated at
trial, it denies O’Brien’s motion to dismiss (R. 45).
Standard
“Challenging an indictment is not a means of
testing the strength or weakness of the government’s
case, or the sufficiency of the government’s evidence.”
United States v. Moore, 563 F.3d 583, 586 (7th Cir.
2009) (internal quotation marks omitted). Rather, a
motion to dismiss seeks to correct a defect in the
indictment, such as “duplicity.” Fed. R. Crim. P. 12(b)
(3)(B)(i).
“Duplicity is the joining of two or more offenses in
a single count.” United States v. Hughes, 310 F.3d
557, 560 (7th Cir. 2002) (quotation marks and citation
omitted). “The overall vice of duplicity is that the jury
cannot in a general verdict render its finding on each
offense, making it difficult to determine whether a con­
viction rests on only one of the offenses or both.”
United States v. Buchmeier, 255 F.3d 415, 425 (7th
Cir. 2001) (quotation marks and citation omitted). In
addition to jury confusion, “a duplicitous indictment
may expose a defendant to other adverse effects
including improper notice of the charges against him,

App.94a

prejudice in shaping of evidentiary rulings, in senten­
cing, in limiting review on appeal, and in exposure to
double jeopardy.” Id. (quotation marks omitted).
An indictment is not duplicitous, however, if it
charges a single offense carried out through different
means. United States v. Berardi, 675 F.2d 894, 897
(7th Cir. 1982). Federal Rule of Criminal Procedure
7(c)(1) provides that “[a] count may allege that. . . the
defendant committed [an offense] by one or more
specified means.” “The line between multiple offenses
and multiple means to the commission of a single
continuing offense is often a difficult one to draw,” and
“[t]he decision is left, at least initially, to the discre­
tion of the prosecution.” United States v. Davis, 471
F.3d 783, 791 (7th Cir. 2006) (quotation marks
omitted). “Where the indictment ‘fairly interpreted’
alleges a ‘continuing course of conduct, during a
discrete period of time,’ the indictment is not prejudi­
cially duplicitous.” Id. at 790-91 (quoting Berardi, 675
F.2d at 898). More generally, the Seventh Circuit has
held that “an indictment is legally sufficient” for pur­
poses of Rule 7(c)(1) “if (l) it states all the elements of
the crime charged, (2) adequately informs the defend­
ant of the nature of the charges against him, and (3)
allows the defendant to assert the judgment as a bar
to future prosecutions of the same offense.” United
States v. Vaughn, 722 F.3d 918, 925 (7th Cir. 2013).
Analysis
“Duplicity is not always fatal to an indictment.”
United States v. Steurer, 942 F. Supp. 1183, 1186
(N.D. Ill. 1996). Accordingly, this Court “first deter­
mine [s] whether the counts at issue are duplicitous,”
and then turns to the question of whether, in any event,

App.95a

“other measures can cure any prejudice that might
exist.” Id.
I.

Duplicity of Indictment

Both Counts I and II of the indictment in this case
allege a three-year scheme to defraud, causing lenders
to issue and refinance loans related to two investment
properties that O’Brien owned on the south side of
Chicago. R. 1. The indictment alleges that this scheme
was comprised of four transactions: (l) in 2004,
O’Brien “fraudulently obtained mortgage loan pro­
ceeds to purchase an investment property located at
625 West 46th Street” by submitting mortgage docu­
ments with false statements regarding her income
and liabilities; (2) in 2005, O’Brien, with Bartko as the
loan originator, “fraudulently refinanced her mortgage
loans on the 46th Street property and on a second
investment property located at 823 West 54th Street”
by submitting applications with false statements
regarding O’Brien’s income and employment; (3) in
2006, O’Brien “fraudulently obtained a commercial line
of credit” by submitting an application with false
statements about her realty company’s revenue and
profit “and used those loan proceeds to maintain the
46th Street and 54th Street properties”; and (4) in
2007, O’Brien and Bartko “agreed that O’Brien would
sell the 46th Street and 54th Street properties to
Bartko” using “a straw buyer whom O’Brien and Bartko
knew would be fraudulently qualified for mortgage
loans.” Id. at 4-7. For each of Counts I and II, the
indictment alleges only one “execution]” of the
scheme—a single fraudulent mailing during the 2007
transaction in Count I and a single fraudulent
issuance of a mortgage loan by a lender during the
2007 transaction in Count II. Id. at 9-10.

App.96a

O’Brien maintains that each of the four transac­
tions alleged in the indictment to comprise a scheme
constitutes a separate offense, and that the indict­
ment thus improperly “joints] . . . two or more offenses
in a single count.” See Hughes, 310 F.3d at 560. But
the question of whether these transactions could have
been charged as separate offenses is not dispositive of
duplicity. “[T]wo or more acts, each one of which
would constitute an offense standing alone, may be
joined in a single count without offending the rule
against duplicity.” Berardi, 675 F.2d at 898. In the
context of mail and bank fraud specifically, for which
the statutes criminalize each “execut[ion]”l of a scheme,
1 See 18 U.S.C. § 1341 (“Whoever, having devised or intending to
devise any scheme or artifice to defraud, or for obtaining money
or property by means of false or fraudulent pretenses, represent­
ations, or promises, or to sell, dispose of, loan, exchange, alter, give
away, distribute, supply, or furnish or procure for unlawful use
any counterfeit or spurious coin, obligation, security, or other
article, or anything represented to be or intimated or held out to
be such counterfeit or spurious article, for the purpose of
executing such scheme or artifice or attempting so to do, places
in any post office or authorized depository for mail matter, any
matter or thing whatever to be sent or delivered by the Postal
Service, or deposits or causes to be deposited any matter or thing
whatever to be sent or delivered by any private or commercial
interstate carrier, or takes or receives therefrom, any such
matter or thing, or knowingly causes to be delivered by mail or
such carrier according to the direction thereon, or at the place at
which it is directed to be delivered by the person to whom it is
addressed, any such matter or thing, shall be fined under this
title or imprisoned not more than 20 years, or both. * * *”)
(emphasis added); 18 U.S.C. § 1344 (“Whoever knowingly
executes, or attempts to execute, a scheme or artifice—(l) to
defraud a financial institution; or (2) to obtain any of the moneys,
funds, credits, assets, securities, or other property owned by, or
under the custody or control of, a financial institution, by means
of false or fraudulent pretenses, representations, or promises;

App.97a

the Seventh Circuit has made clear that although “for
each count of conviction, there must be an execution,”
“the law does not require the converse: each execution
need not give rise to a charge in the indictment.”
United States v. Hammen, 977 F.2d 379, 383 (7th Cir.
1992). In other words, “an act which can be viewed as
an independent execution of a scheme” and thus
charged as a separate count does not need to be
charged in a separate count. United States v. King,
200 F.3d 1207, 1213 (9th Cir. 1999) (citing United
States v. Bruce, 89 F.3d 886, 889-90 (D.C. Cir. 1996)).
If several fraudulent executions are part of the
same scheme, the government thus has discretion to
(a) charge each execution in a separate count or (b)
“allege only one execution of an ongoing scheme that
was executed numerous times.” Hammen, 977 F.2d at
383; accord Bruce, 89 F.3d at 889-90 (denying motion
to dismiss an indictment as duplicitous where it
alleged “four separate loan applications each as one
‘part’” of an “overall scheme” because the government
“‘carefully crafted the indictment to allege only one
execution of an ongoing scheme that was executed
numerous times’”) (quoting Hammen, 977 F.2d at 383).
The government here chose the latter route. The
indictment alleges only one execution in each Count:
(l) in Count I, it alleges that a mailing on April 16,
2007 of a payoff check relating to the straw buyer’s
purchase of the 46th Street property constituted mail
fraud in violation of 18 U.S.C. § 1341; and (2) in Count
II, it alleges that the funding of a mortgage by
Citibank, N.A. on April 16, 2007 for the straw buyer’s
shall be fined not more than $1,000,000 or imprisoned not more
than 30 years, or both.”) (emphasis added).

App.98a

purchase of the 46th Street property constituted bank
fraud in violation of 18 U.S.C. § 1344. R. 1 at 9, 10.2
And it describes the 2004, 2005, and 2006 transac­
tions as part of a scheme rather than as separate
executions of bank or mail fraud. See R. 1.
The fact that the indictment clearly charges only
one execution in each count goes a long way toward
satisfying Rule 7(c)(l)’s requirement of “adequately
inform [ing] the defendant of the nature of the charges
against h[er].” Vaughn, 722 F.3d at 925. It also distin­
guishes this case from United States v. Tanner, 471
F.2d 128 (7th Cir. 1972), on which O’Brien relies. In
Tanner, the Seventh Circuit held that an indictment
was duplicitous where the government had “delin­
eate [d] as a single offense all trips [transporting
explosives across state lines] that occurred within a
period of time” without “defining at what point the act
of transporting explosives is completed” or which trip
completed it. Id. at 138-39; see also United States v.
Schock, 2017 WL 4780614, at *20-21 (C.D. Ill. Oct. 23,
2017) (dismissing theft of government funds count as
duplicitous where “the Government has made it
impossible for Defendant (and the court) to determine
which disbursement” of the numerous disbursements
alleged “gave rise to the allegations” in that count).

2 O’Brien does not challenge for purposes of this motion whether
each of these 2007 executions was a complete offense falling
within the statute of limitations. See R. 96 at 4 n.6. This fact
distinguishes this case from United States v. Anderson, 188 F.3d
886 (7th Cir. 1999), where the court reversed a bank fraud con­
viction because “no conduct charged in the indictment. . . that
constitutes” a complete “execution” occurred within the statute
of limitations. Id. at 891.

App.99a

Throughout her filings, O’Brien makes much of
the likely reason the government chose to proceed this
way: the 2004, 2005, and 2006 transactions would have
been outside the statute of limitations if charged
separately. But as long as they are part of the same
scheme, this choice was within the government’s dis­
cretion. See, e.g., Hammen, 977 F.2d at 383; United
States v. Longfellow, 43 F.3d 318, 322-25 (7th Cir.
1994) (“only one or two executions fell within the
Statute of Limitations,” but that “does not detract from
the entire pattern of loans0 being a scheme, and
renders Longfellow no less culpable for that entire
scheme”); United States v. Mermelstein, 487 F. Supp.
2d 242, 254 (E.D.N.Y. 2007) (rejecting argument that
“executions” of fraud completed outside the statute of
limitations “are barred,” because a fraud indictment
“may properly charge, in a single count, a pattern of
executions ... as part of a single, overarching
continuing scheme”).
The crucial question therefore becomes whether
the 2004, 2005, 2006, and 2007 transactions are all
fairly alleged to be part of a single scheme to defraud.
See Davis, 471 F.3d at 790-91 (“an indictment can be
duplicitous if numerous discrete instances of criminal
conduct are lumped into a single count,” but this is not
the case if the indictment, “fairly interpreted,” alleges
a scheme) (quotation marks omitted); United States v.
Zeidman, 540 F.2d 314, 317 (7th Cir. 2006) (the fact
that “each of the frauds . . . could constitute a separate
offense” was “not determinative” of duplicity where
each count “charges only one mailing” and alleges a
scheme). Although “[a]s its ordinary meaning suggests,
the term ‘scheme to defraud’ describes a broad range of
conduct,” United States v. Doherty, 969 F.2d 425, 429

App.lOOa
(7th Cir. 1992), a scheme is generally understood to be
a ‘“continuing course of conduct, during a discrete
period of time.’” Davis, 471 F.3d at 790 (quoting
Berardi, 675 F.2d at 898); see also R. 46 at 11 n.26 &
14 n.27 (O’Brien citing Da vis for same).
Where a defendant challenges the government’s
allegations of a scheme on duplicity grounds, courts
analyze: “(l) whether defendant’s alleged actions may
legitimately be regarded as a single course of conduct”
during a discrete time period; “and (2) whether defend­
ant would be prejudiced by h[er] prosecution on a
single-count basis.” United States v. Grossi, 1995 WL
571417, at *3 (N.D. HI. Sept. 25,1995) (quotation marks
and alterations omitted); accord Berardi, 675 F.2d at
899 (examining whether “offenses joined bear a relation­
ship to one another and may be said to constitute a
continuing course of conduct” and whether “[t]he
dangers posed by a duplicitous indictment” are “present
in the instant case”) (quotation marks omitted). The
Court addresses each consideration in turn.
A. Single Course of Conduct dining Discrete Time
Period
Course of Conduct. To determine whether trans­
actions constitute a single course of conduct so as to
be part of one scheme, the Seventh Circuit has looked
to whether they “have a sufficiently close nexus” or are
“sufficiently interrelated” with an eye toward mean­
ingful commonalities and differences. See Zeidman,
540 F.2d at 317-18; accord United States v. Hollnagel,
2011 WL 3664885, at *9 (N.D. Ill. Aug. 19, 2011); R.
46 at 11 n.26 (O’Brien citing Zeidman for same).
Having a sufficiently close nexus does not, however,
mean that the transactions must be interdependent.

App.lOla

O’Brien at one point invokes the test from the
Seventh Circuit’s decision in United States v. Allender,
62 F.3d 909, 912 (7th Cir. 1995), that “a separate
execution must be chronologically and substantively
independent and not dependent on another for its
existence.” R. 72 at 21-22. But that is the test for
separate executions—not for separate schemes. Again,
two or more executions of bank or mail fraud—i.e.,
“chronologically and substantively independent” events,
Allender, 62 F.3d at 912—can be joined in a single
count as long as they are part of the same scheme.
E.g., Hammen, 977 F.2d at 383.
Here, unsurprisingly, the government emphasizes
the commonalities among the four transactions alleged
in the indictment, often at a high level, and O’Brien
emphasizes the differences, often at a granular level.
As the government explains, the common elements
between the transactions alleged are: (l) they all
involved at least one of a pair of investment properties
in Chicago’s south side; (2) they all involved O’Brien;
(3) they all involved lies in loan documents; (4) they
all involved the same class of victims (lenders); and (5)
they all involved the same goals (obtaining financing
related to the two investment properties and personal
enrichment). R. 55 at 6-7. Courts have found similar
commonalities sufficient to allege a single course of
conduct. See, e.g., United States v. Mason, 2016 WL
2755401, at *2 (N.D. Ill. May 12, 2016) (alleged
scheme to submit falsified documents to four different
government entities at different times was not duplici­
tous and had “an adequate nexus” where conduct
“occurred during the same two year time span, targeted
the same class of victims, and utilized the same sort of
fraudulent communications”); United States v. Brown,

App.l02a
894 F. Supp. 1150, 1154 (N.D. Ill. 1995) (scheme invol­
ving 13 defendants cashing stolen and forged checks
at 22 different banks over the course of two and a half
years was a single scheme “unified by the presence of
the defendant Brown in each alleged act of fraud”).
O’Brien takes issue with each of the government’s
five alleged commonalities, focusing on what she
claims to be key differences among the transactions.
First, O’Brien claims that not all of the transactions
related to the investment properties because the 2006
line of credit was “used to cover business expenses.”
R. 46 at 8. But, as O’Brien acknowledges (R. 46 at 3),
on a motion to dismiss this Court “assumes all facts in
the indictment are true and must view all facts in the
light most favorable to the government.” United States
v. Segal, 299 F. Supp. 2d 840, 844 (N.D. HI. 2004) (quo­
tation marks omitted). And the indictment alleges a
direct connection between the 2006 line of credit and
the investment properties—i.e., that the funds from
the line of credit were used “to maintain the 46th
Street and 54th Street properties.” R. 1 at 4.
Second, O’Brien points out that even though she
was allegedly involved in all four transactions, Bartko
was not. She claims this means that the parties
involved are not sufficiently alike. In Hollnagel, the
court rejected a similar argument that because the
indictment did not allege that each defendant “parti­
cipated in each of the misrepresentations and transac­
tions, the [indictment] must allege separate schemes
and therefore fails for duplicity.” 2011 WL 3664885,
at *11. The court explained that in a scheme (unlike
in a conspiracy), each participant “need not know about
the existence and activities of the other co-schemers.”
Id. (citing United States v. Wilson, 506 F.2d 1252,

App.l03a

1257 (7th Cir. 1974)). Although the fact “that many of
the alleged co-schemers were unaware of the existence
of a larger scheme” would be “fatal to an allegation of
conspiracy,” it “is irrelevant to an allegation of a
common scheme.” Brown, 894 F. Supp. at 1155.
Thus, Bartko did not “need not know about” the
2004 and 2006 transactions for them to be part of a
single scheme. See Hollnagel, 2011 WL 3664885, at
*11. The indictment alleges that O’Brien was involved
in each transaction, which is a significant, although
not dispositive, commonality. R. 1. at 2-10; see, e.g.,
Brown, 894 F. Supp. at 1154 (scheme was “unified by
the presence of the defendant Brown in each alleged
act of fraud”). And the indictment alleges integral
involvement by Bartko—namely, that she reached
agreements with O’Brien and played an important
role in the 2005 and 2007 transactions. R. 1 at 5-6, 710.3 Those allegations, if proven, would constitute
3 O’Brien’s filings raise a number of additional issues regarding
Bartko’s involvement that are not appropriate for this Court to
consider or resolve on a motion to dismiss. In a supplement to
her motion to dismiss and reply in support (R. 86 & R. 96), for
example, O’Brien argues that the evidence before the grand jury
did not support that Bartko was involved in the alleged scheme
‘beginning in or about 2004” as the government alleges at para­
graph 2 of the indictment. O’Brien’s argument about how
accurately the indictment reflects the grand jury testimony goes
well beyond the face of the indictment. And at the motion to
dismiss stage, “[a]n indictment is reviewed on its face, regardless
of the strength or weakness of the government’s case.” United
States v. White, 610 F.3d 956, 958 (7th Cir. 2010). This Court
therefore limits its consideration of O’Brien’s argument to the
face of the indictment.
On its face, O’Brien is right that paragraph 2 of the indictment
“could have been framed in a more satisfactory manner.” Vaughn,
722 F.3d at 925 (quotation marks omitted). Paragraph 2 implies

App.l04a

participation by Bartko in a “common scheme” to
defraud. See Wilson, 506 F.2d at 1257 (“common
scheme” to defraud existed when “each defendant know­
ingly participated and either mailed or caused the
that Bartko was involved as early as 2004, and the remainder of
the indictment implicates Bartko only in the 2005 and 2007
transactions. R. 1 at 3-10. But paragraph 2 also states that the
scheme is “further described below.” Id. at 3. And the indictment
goes on to make Bartko’s involvement clear. Id. at 3-10. As
explained above, “[t]he test for validity is not whether the
indictment could have been framed in a more satisfactory
manner, but whether it conforms to minimal constitutional stan­
dards.” Vaughn, 722 F.3d at 925 (quotation marks omitted).
O’Brien also raises a number of issues that go to the sufficiency
of the government’s evidence of Bartko’s participation in the
alleged scheme prior to 2007. O’Brien claims the grand jury
testimony indicates that Bartko did not know about O’Brien’s
investment properties prior to 2007. R. 86 at 3. O’Brien further
claims that the government’s ex parte application to the Chief
Judge of this district seeking tax returns in 2016 focused on evi­
dence of the 2007 transaction. R. 72 at 2-6. And O’Brien contends
there is no evidence that Bartko was a loan originator during the
2005 transaction. R. 46 at 7 n.19; R. 72 at 14 n.18. But these
arguments implicate “factual issues that are not appropriate for
the Court to resolve” on a motion to dismiss an indictment.
Hollnagel, 2011 WL 3664885, at *11; see also United States v.
Polichemi, 1995 WL 733473, at *4 (N.D. Ill. Dec. 8, 1995) (“It
must be determined whether the indictment can fairly be read as
alleging a single scheme; whether a single scheme will be proven
at trial is not a consideration.”).
O’Brien seems to be previewing a variance argument, which is of
course premature. A defendant has a right to be tried on the
charges actually brought by the grand jury. “A variance is fatal
only when the defendant is prejudiced in her defense because she
cannot anticipate from the indictment what evidence will be
presented against her or she is exposed to double jeopardy.”
United States v. Howard, 619 F.3d 723, 727 (7th Cir. 2010) (quo­
tation marks and alterations omitted).

App.l05a
mailing charged in the indictment against him or
her,” and co-schemers were “responsible for the acts
and declarations of another party in furtherance of the
common scheme” with whom they had reached an
agreement “whether or not he knew of or agreed to
any specific mailing”).
Third, O’Brien claims the transactions all involved
different types of conduct: “for the 2004 transaction
... lies about Ms. O’Brien’s monthly income and her fail­
ure to disclose a mortgage liability; for the 2005 trans­
action . . . lies about Ms. O’Brien’s employer and her
monthly business income; for the 2006 transaction
. . . lies about O’Brien Realty, LLC’s annual revenue
and annual profit; and for the 2007 transaction . . . lies
relating to a straw buyer, concealment of funds from
lenders, inflated sales price, and a false representa­
tion.” R. 72 at 14. But “an indictment is not duplicitous
if it charges a single offense carried out through many
different means.” Davis, 471 F.3d at 790. And the
Seventh Circuit has recognized that “[s]chemes to
defraud by mail often are multi-faceted and therefore
the various means used in committing the offense may
be joined without duplicity.” Zeidman, 540 F.2d at
318.
Applying these principles in Hollnagel, the court
found that “misrepresentations and misappropriations,
bribes, and concealment” were “various means” used
in a single course of conduct. 2011 WL 3664885, at *9.
And in United States v. Freed, 2016 WL 374133 (N.D.
Ill. Feb. 1, 2016), the court likewise found that two
different types of conduct—(l) “taking money from
... joint venture partners”; and (2) “matking] presenta­
tions to . . . various financial institutions that under­
valued the joint venture’s projected debt and the cost

App.l06a
of sale”—were both “means” of committing fraud that
constituted a single course of conduct. Id. at *3-4. Like
in Hollnagel and Freed, the different types of conduct
in this case are all fairly understood as different means
of carrying out fraud. Indeed, the types of conduct in
this case are more alike than those in Freed and
Hollnagel because, as O’Brien acknowledges (R. 72 at
14), they all involved lies in documents submitted to
lenders.
Fourth, O’Brien points out that the victims in this
case were several different lenders. But the Seventh
Circuit and courts in this district evaluating duplicity
have not parsed the victims involved so finely. To the
contrary, courts have found transactions involving sev­
eral different classes of victims to be part of a single
course of conduct. E.g., Zeidman, 540 F.2d at 315 (“two
classes of victims”); Hollnagel, 2011 WL 3664885, at
*9 (“current and prospective investors and financial
institutions”); Freed, 2016 WL 374133, at *3 (“joint
venture partners and their bankers”). Here, there is
one, common class of victims: lenders.
O’Brien relies on a decision by a court in the Dis­
trict of New Jersey in United States v. Hinton, 127 F.
Supp. 2d 548, 556 (D.N.J. 2000), which concluded
that an indictment was duplicitous in part because the
scheme involved six different financial institutions.
Unlike the Hinton court, which implied that a single
scheme to defraud cannot involve “more than one
financial institution,” id. at 554, the Seventh Circuit
has found that alleged fraud involving even two
different “classes of victims”—debtors and creditors—
was properly joined as a single course of conduct.
Zeidman, 540 F.2d at 315. The Hinton court acknow­
ledged that a court in this district had rejected a

App.l07a

duplicity challenge in a similar case. Id. at 554 (citing
Brown, 894 F. Supp. at 1154). Moreover, Hinton is
factually distinguishable. It involved “at least 128
transactions executed in furtherance of frauds” for
which the “alleged perpetrator(s) for a particular
institution’s transactions d[id] not generally overlap.”
Id.
Fifth, O’Brien argues that each of the transactions
in this case had different goals: “[t]he goal of the 2004
transaction involved obtaining a mortgage loan to
purchase properties, the goal of the 2005 transaction
involved refinancing two mortgage loans, the goal of
the 2006 transaction involved obtaining a $25,000
Small Business Act commercial line of credit, and, the
goal of the 2007 transaction involved Ms. O’Brien
selling real estate properties.” R. 72 at 16. O’Brien
cites United States v. DiCosola, 2014 WL 4057420
(N.D. Ill. Aug. 14, 2014), for the proposition that “dif­
ferent charges” do not “relate to the same scheme just
because they share a similar uncharged or non­
criminal motive, especially when it is a generic one
like financial gain.” Id. at *5.
The DiCosola decision, on which O’Brien heavily
relies throughout her filings, is distinguishable from
this case for several reasons. It addressed a different
type of motion governed by a different standard—
namely, a severance motion for misjoinder of counts
under Fed. R. Crim. P. 8(a). See id. at *2. And, more
importantly, DiCosola involved three very different
kinds of crimes—bank fraud, tax violations, and
bankruptcy fraud—joined in a single indictment. See id.
at *1-3. Although this Court agrees with the DiCosola
court that a broadly alleged motive like “financial
gain” is not enough to link crimes together that are

App.l08a

very different in nature, the transactions in this case
are all executions of fraud involving lenders. The
result may be different had the government tried to tie
a dissimilar crime into the scheme. But the common
goal that fairly can be gleaned from the indictment in
this case is more specific than mere “financial gain.”
It is also more specific than “obtaining money from
another” like in United States v. Jenkins, 884 F. Supp.
2d 789, 792 (E.D. Wis. 2012), another case on which
O’Brien relies. The goal of each alleged transaction
in this case was to make money off of O’Brien’s two
investment properties through fraud involving lenders.
Other courts have found similar goals sufficient
to link different “means” of committing fraud together
as part of a single course of conduct. E.g., Hollnagel,
2011 WL 3664885, at *11 (the indictment “sets forth
multiple means utilized by multiple Defendants to
achieve the common goal of fraudulently obtaining
and retaining financing for Defendant BCI and
obtaining funds for the individual Defendants’ personal
enrichment”); Freed, 2016 WL 374133, at *3 (common
goal or result was devaluation of the joint venture);
Brown, 894 F. Supp. at 1153 (common goal was, in
O’Brien’s own words (R. 72 at 21 n.26), “to obtain
money individually, with a share of the funds obtained
through forging checks”).
“Nor is it significant” in assessing whether the
scheme had a common goal “that the whole scheme was
not planned out in advance.” E.g., Owens v. United
States, 221 F.2d 351, 354 (5th Cir. 1955). “A continuing
intention to devise it, . . . or an imperfectly conceived
plan to defraud which becomes more and more
sophisticated ... may well constitute a single scheme.”
Id.

App.l09a
Like in many fraud cases, “[t]he line between
multiple offenses and multiple means to the commission
of a single continuing offense” with a common goal is
“difficult to draw” in this case. Berardi, 471 F.3d at
791 (quotation marks omitted). But this “decision” fell
“to the discretion of the prosecution” as an initial
matter, and this Court finds that the indictment was
not an inappropriate exercise of that discretion. See
id.
Discrete Time Period. Courts also have looked to
whether transactions occurred “during a discrete
period of time” to determine whether they are fairly
alleged as part of a single scheme. Davis, 471 F.3d at
790 (quotation marks omitted). Although the transac­
tions in this case were spread out over the course of
three years, that time period is significantly shorter
than time periods that other courts have found suffi­
ciently discrete. In Freed, for example, the court
declined to dismiss a mail and bank fraud indictment
on duplicity grounds where it “set[ ] out an ongoing
and continuous course of conduct.. . for a specific period,
albeit one that lasted from at least November 2007 to
at least February 2011.” 2016 WL 374133, at *3. In
Hollnagel, the court declined to dismiss a wire fraud
count on duplicity grounds where it alleged a scheme
lasting “from 2000 to mid-February 2009.” 2011 WL
3664885, at *1. And in Grossi, the court declined to
dismiss a fraud indictment on duplicity grounds
alleging a scheme that involved six transactions
between 1984 and 1993. 1995 WL 571417, at *1.
In sum, although the question is a close one, the
Court finds that the transactions in this case had a
“sufficiently close nexus” and occurred during a suffi­
ciently discrete period of time “that they are fairly

App.llOa
characterized as one scheme.” Zeidman, 540 F.2d at
317.
B. Prejudice
The second consideration in determining whether
the indictment in this case is problematically dupli­
citous is “whether [O’Brien] would be prejudiced.”
Grossi, 1995 WL 571417, at *3; accord Berardi, 675
F.2d at 899. O’Brien alleges that the indictment pre­
judices her in a number of ways. To begin, O’Brien
claims the indictment “prevents the jury from con­
victing on one offense and acquitting on another.”
United States v. James, 749 F. Supp. 2d 705, 708 (S.D.
Ohio 2010) (quotation marks omitted). The Court finds
that this concern is substantially addressed by the way
the indictment is drafted. As explained above, the
indictment is drafted to allege only one discrete and
well-described execution in each count (one mailing in
Count I and one loan by a bank in Count II). As long
as the jury instructions and special verdict form make
this clear (as further addressed below), a jury will not
mistakenly convict simply because it “believed the
2004 allegations” or “the 2006 allegations” as O’Brien
speculates. R. 46 at 21. A unanimous jury will need to
find that the 2007 executions of mail and bank fraud
took place. With proper instructions, therefore, this
indictment will not result in “[t]he overall vice of
duplicity that the jury cannot in a general verdict
render its finding on each offense, making it difficult
to determine whether a conviction rests on only one of
the offenses or both.” Buchmeier, 255 F.3d at 425 (quo­
tation marks omitted).
O’Brien also broadly alleges that the indictment
violates her Sixth Amendment right to “notice of the

App.llla

nature and cause of the accusation.” Tanner, 471 F.2d
at 139. Again, this concern is addressed by the way
the indictment is drafted. Unlike in Tanner, the
indictment in this case is clear about which specific
acts are alleged to have violated the laws in question.
Compare id. (“individual roles” of defendants were not
“specified,” and government had “delineate [d] as a
single offense all trips [transporting explosives] that
occurred within a period of time” without specifying
any particular trip as the basis of the charge).
O’Brien next claims that the indictment prejudices
her “by prosecuting her for conduct that occurred out­
side the statute of limitations.” R. 46 at 18. But
O’Brien is not contesting for purposes of this motion
CseeR. 96 at 4 n.6) that the 2007 executions alleged to
have constituted mail fraud (in Count I) and bank
fraud (in Count II) occurred within the 10-year statute
of limitations. See 18 U.S.C. § 3293. O’Brien is correct
that if the 2004, 2005, and 2006 transactions were
charged in separate counts, they would be subject to a
motion to dismiss on statute of limitations grounds.
But the government did not charge them as separate
counts. It charged only one execution within the stat­
utory period in Count I and one execution within the
statutory period in Count II. As explained above,
doing so was well within the government’s discretion.
See, e.g., Longfellow, 43 F.3d at 325 (the fact that
“only one or two executions fell within the Statute of
Limitations does not detract from the entire pattern
of loans[ ] being a scheme”).
Other courts in this district have rejected argu­
ments like O’Brien’s for dismissal on duplicity grounds
because “the government circumvented the statute of
limitations” by lumping offenses together in an

App.ll2a

allegedly duplicitous count. Hollnagel, 2011 WL 3664885, at *12. To explain its rejection of this argument,
the court in Hollnagel quoted United States v. Well­
man, 830 F.2d 1453,1464 (7th Cir. 1987), for the prop­
osition that ‘“the fact that the scheme, and acts com­
mitted in furtherance of it, may have extended over a
period in part barred by the statute of limitations does
not mean that they are irrelevant in determining
whether mailings occurring within the statutory period
were in furtherance of a scheme to defraud.”’ 2011 WL
3664885, at *12 (quoting Wellman, 830 F.2d at 1464
(time-barred evidence “was highly relevant to the
existence of the very same scheme to defraud which
the mailings in this case were alleged to have fur­
thered”)).
Similarly in Gross!, 1995 WL 571417, the defend­
ant argued that a count should be dismissed on dupli­
city grounds because “prosecution in a single count
deprive [d] him of the defense of the statute of limita­
tions” and “much of the conduct charged should be
barred as beyond the statute of limitations.” Id. at *4.
The Grossi court explained that “where a defendant is
properly charged with multiple acts in furtherance of a
single scheme, events occurring prior to the limitations
period are relevant to establish a scheme to defraud
and the defendants’ intent.” Id. (quotation marks omit­
ted). Likewise here, the Court finds that evidence
regarding the pre-statute of limitations transactions
is “relevant to establish a scheme to defraud and
[O’Brien’s] intent.” Id. The government is not im­
properly “prosecuting [O’Brien] for conduct that
occurred outside the statute of limitations” as she
alleges. R. 46 at 18.

App.ll3a

O’Brien further argues that because the govern­
ment has grouped the transactions together, O’Brien
cannot testify regarding certain transactions but invoke
her Fifth Amendment right to remain silent on others,
which she claims she would be able to do if they were
charged as separate counts. See United States v.
Lewis, 547 F.2d 1030, 1033 (8th Cir. 1976) (“A defen­
dant may be willing to take the stand and testify as to
one count but might prefer to remain silent and put
the government to its proof on another count.”). That
is an unlikely scenario in the real, non-theoretical world.
It is also a concern present any time the government
charges several executions of a single scheme in one
count that could be charged in separate counts, which,
as explained above, is in its discretion to do.
Moreover, as the government points out, even if
the grand jury had returned an indictment with a
fraud scheme involving only the 2007 transactions,
O’Brien still would be subject to cross-examination on
the uncharged transactions if she chose to testify
because they are all probative of her character for
truthfulness under Fed. R. Evid. 608(b). See, e.g.,
United States v. Alexander, 135 F.3d 470, 478 (7th Cir.
1998) (affirming denial of severance motion and
explaining that in trial on other counts defendant
“would be subject to cross-examination on the fraudu­
lent representations [including fraudulent representa­
tions in loan documents] charged in other counts
because those instances of dishonesty are relevant to
[defendant’s] ‘character for truthfulness’ under Fed.
R. Evid. 608(b)”).
O’Brien responds that a right to cross-examination
on these other transactions would not be automatic
under Rule 608(b). See Fed. R. Evid. 608(b) (a “court

App.ll4a
may, on cross-examination, allow” “specific instances
of a witness’s conduct” “to be inquired into if they are
probative of the [witness’s] character for truthfulness
or untruthfulness”) (emphasis added). This point leads
directly to O’Brien final, prejudice-related argument:
that the indictment prejudices her by allowing timebarred evidence to be admitted as probative of a
scheme that this Court otherwise may not admit
under Fed. R. Evid. 608(b), 404(b), and 403. See United
States v. Seymour; 472 F.3d 969, 971 (7th Cir. 2007)
(“Rule 403 establishes the standard for the exercise of
the judge’s discretion in evidentiary matters, which of
course includes cross-examination” under Rule 608
(b)); United States v. Gomez, 763 F.3d 845, 860 (7th
Cir. 2014) (“[T]o overcome an opponent’s objection to
the introduction of other-act evidence [under Rule
404(b)], the proponent of the evidence must first
establish that the other act is relevant to a specific
purpose other than the person’s character or propensity
to behave a certain way.... If the proponent can make
this initial showing, the district court must in every
case assess whether the probative value of the otheract evidence is substantially outweighed by the risk of
unfair prejudice and may exclude the evidence under
Rule 403 if the risk is too great.”).
This is the most concerning type of potential pre­
judice that O’Brien alleges. But this potential for pre­
judice was equally present in Grossi and Hollnagel,
where the government charged multiple transactions
as part of a single scheme that would have been
excluded on statute of limitations grounds if charged
in separate counts, and the courts found “evidence” of
those transactions “relevant to establish a scheme to
defraud and the defendants’ intent.” Grossi, 1995 WL

App.ll5a

571417, at *4; Hollnagel, 2011 WL 3664885, at *12.
The Grossi and Hollnagel courts did not express con­
cern that the evidence might not otherwise be
admitted under a Rule 608(b) and 404(b) analysis.
Again, the government had discretion to charge the
indictment the way it did as long as it fairly alleges a
scheme, which the Court has found that it does.
Moreover, the Court notes for the record that based on
the evidence as it currently stands, the Court would
very likely admit the evidence of the 2004, 2005, and
2006 transactions under Rule 608(b) (if O’Brien testi­
fied) or Rule 404(b) in any event.
II.

Measures for Curing Potential Prejudice

Even if the Court were to find the indictment
duplicative, it would not find dismissal an appropriate
remedy. “‘[Djismissal is a disfavored remedy that
should be avoided when appropriate clarifying instruc­
tions can redress concerns over a potentially dupli­
citous indictment.” Freed, 2016 WL 374133, at *3
(quotation marks omitted). “The Seventh Circuit has
concluded that jury instructions can sufficiently
safeguard against possibly duplicitous counts.” Id.
In United States v. Marshall, 75 F.3d 1097 (7th
Cir. 1996), for example, the Seventh Circuit reasoned
that “even if the offenses are arguably separate and
distinct,” the jury instructions ensured a unanimous
conviction. Id. at 1112. And in Buchmeier, the Seventh
Circuit explained that its conclusion in Marshall“th.a.t
the indictment was not fatally flawed rested in large
part on the fact that the district court had avoided
prejudicing the defendant by instructing the jury that
it was required to unanimously agree as to which of

App.ll6a

the offenses included in the disputed count the defend­
ant had committed.” 225 F.3d at 425 (citing Marshall,
75 F.3d at 1112); accord United States v. Starks, 472
F.3d 466, 471 (7th Cir. 2006) (properjury instructions
allayed any worries about duplicity). As these cases
suggest, the Court will mitigate against “[t]he overall
vice of duplicity,” through a jury instruction and
special verdict form making clear that the jury “must
unanimously agree” that each element of the mail and
bank fraud statutes have been met based on the 2007
executions. SeeBuchmeier, 255 F.3d at 425.
Conclusion
For the foregoing reasons, the Court denies
O’Brien’s motion to dismiss (R. 45).
ENTERED:
/si Thomas M. Durkin
United States District Judge
Dated: November 9, 2017

App.ll7a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE SEVENTH CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(SEPTEMBER 1, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESSICA ARONG O’BRIEN,
Defendant-Appellant.
No. 19-1004
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division.
No. 17-cr-00239-l—Thomas M. Durkin, Judge.
Before: Joel M. FLAUM, Kenneth F. RIPPLE,
Circuit Judges., and Diane P. WOOD, Chief Judge.
On consideration of the petition for rehearing and
petition for rehearing en banc filed by the defendant
appellant in the above case on August 14, 2020, no
judge in active service has requested a vote thereon
and all judges on the original panel have voted to deny
the petition. The petition is therefore DENIED.

